  AUDIT OF THE DEPARTMENT OF 

 JUSTICE’S OVERSIGHT OF COSTS 

INCURRED THROUGH THE FEES AND 

    EXPENSES OF WITNESSES 

        APPROPRIATION


       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 14-32 

            September 2014



                     
   AUDIT OF THE DEPARTMENT OF JUSTICE’S OVERSIGHT OF 

   COSTS INCURRED THROUGH THE FEES AND EXPENSES OF 

               WITNESSES APPROPRIATION 


                            EXECUTIVE SUMMARY 


       On an annual basis, the Department of Justice (Department) receives the
Fees and Expenses of Witnesses (FEW) appropriation, which is intended to provide
a centralized funding source for certain costs associated with the legal proceedings
of the federal government, such as the fees, expenses, and protection of witnesses,
and the defense of government employees sued in their official capacity. The FEW
is a mandatory, no-year appropriation, meaning that it does not need further
authorization by Congress to be provided to the Department each year. In
addition, the Department can carry forward any remaining balance of the funds
from one fiscal year (FY) to the next. Since FY 2011, the Department has received
an annual appropriation of $270 million and the Department’s carry forward amount
has increased dramatically, from $18.6 million to $202 million in FY 2014.

       We found that nearly 80 percent of the annual FEW appropriation is used by
the Department to pay for the fees and expenses for expert and fact witnesses.
Because over 90 percent of this amount is used to fund expert witness contracts,
the objective of this audit was to review the Department’s management and use of
the expert witness portion of the FEW appropriation. The Department’s use of the
FEW appropriation for expert witnesses is primarily governed by the Guiding
Principles for Obtaining Witness Services Under the Fees and Expenses of Witnesses
Appropriation (FEW Guiding Principles). The current version of the FEW Guiding
Principles was developed by a working group that included the Justice Management
Division’s (JMD) Procurement Services Staff (PSS) and Office of General Counsel,
along with six Department litigating divisions and the Executive Office for United
States Attorneys (EOUSA).

        During our audit we reviewed a sample of 729 expert witness contract files at
6 litigating divisions and 12 United States Attorneys’ Offices (USAO) nationwide to
determine if the FEW Guiding Principles were being followed and worked effectively
to ensure FEW funds were managed and spent properly. We found that 74, or 10
percent, of the contract files we reviewed did not satisfy the FEW Guiding Principles.
For example, in 43 of these 74 cases the contracted services paid with FEW funds
were provided before or without a court docket date, which is required by the FEW
Guiding Principles. The other 31 cases involved contracts where: (1) there was no
indication that expert testimony was anticipated, (2) expert services were provided
for cases heard outside of the federal judicial system; or (3) administrative services
were the primary purpose. These 74 contracts totaled $15.2 million, representing
about 9 percent of the more than $178 million in FEW funds we tested.

      We also identified an additional 39 expert witness contracts where we could
not determine whether the intent of the FEW Guiding Principles was satisfied
because the underlying contract was vague or the FEW Guiding Principles were


                                          i 
ambiguous or silent about the circumstances presented in the particular case.
These 39 contracts totaled over $10 million in fees and expenses paid with FEW
funds. JMD staff raised similar concerns to the OIG, acknowledging that some
sections of the FEW Guiding Principles are ambiguous or overly restrictive, and as a
result, would benefit from clarification to better meet the stated purposes of the
FEW Guiding Principles. Based on our findings that over 9 percent of the dollars we
tested were used for purposes inconsistent with the FEW Guiding Principles and
over $10 million was spent on fees and expenses where we could not determine the
allowability of the funds used, we believe that the FEW Guiding Principles should be
strengthened to ensure that the allowable uses of FEW funds are clear and that all
Department attorneys and their staffs understand the necessary elements of an
expert witness contract to be paid with FEW funds.

       We also found instances of unallowable or unsupported travel expenses paid
with FEW funds. Specifically, we identified over $24,000 in excess hotel charges
and 26 instances of first class travel in violation of the FEW Guiding Principles’
requirement that expert witnesses abide by the Federal Travel Regulation. In
addition, we identified one component that used more than $100,000 in FEW funds
to purchase dozens of laptop computers, but subsequently failed to follow the JMD
General Counsel’s direction that only expert witnesses could use the computers.
Instead, the component loaned the computers to litigative consultants on several
occasions in violation of the FEW Guiding Principles, which prohibit using FEW funds
to support litigative consultant services.

        Furthermore, we determined that JMD PSS inadequately monitored payments
made by the Department on expert witness contracts, despite the FEW Guiding
Principles assigning PSS a monitoring role. PSS staff told us that their office cannot
realistically monitor component use of FEW funding due to the volume of expert
witness contract actions each year. Instead, PSS expects component
administrative staff members to monitor the use of these funds. However, PSS also
acknowledged that these component administrative staff members are often
reluctant to question attorney decision making. EOUSA officials likewise agreed
that USAO staff members are reluctant to question the decisions made by Assistant
United States’ Attorneys. We believe this situation creates confusion about
monitoring responsibilities and likely results in inconsistent monitoring of FEW
funds.

       We also identified two instances where, in coordination with JMD Budget
Staff, FEW funds were repurposed to reduce budgetary pressure on two
Department components. JMD Budget Staff informed us that it consulted with its
Office of General Counsel before such repurposing. It is unclear whether this use of
FEW funds for purposes not covered in the FEW Guiding Principles was
inappropriate under any law or regulation. However, we believe such repurposing
of funds should be done rarely, and only with scrupulous attention to both the
explicit requirements that attach to the FEW funds and to the Congressional
purpose of that appropriation. Moreover, the FEW Guiding Principles do not clearly
outline a policy for the repurposing of FEW funds, yet as FEW carry forward
balances continue to increase, we believe litigating components could increasingly


                                          ii 
look to the FEW to relieve pressure on their budgets. If the Department finds this
to be an acceptable practice under the FEW appropriation, we believe strict
measures must be in place to prevent abuse. At the very least, the FEW Guiding
Principles should be revised to identify a clear procedure for the repurposing of FEW
funds that includes adequate documentation and approval requirements. In
addition, the Department should consider whether congressional notification of such
repurposing would be appropriate.

      This report makes 12 recommendations to improve the Department’s
guidance on the use of FEW funds and its monitoring of payments made to expert
witnesses using FEW funds.




                                         iii 
     AUDIT OF THE DEPARTMENT OF JUSTICE’S OVERSIGHT OF 

     COSTS INCURRED THROUGH THE FEES AND EXPENSES OF 

                 WITNESSES APPROPRIATION 


                                               TABLE OF CONTENTS 


INTRODUCTION ......................................................................................... 1 

     Utilization of the FEW Appropriation ............................................................ 4 

     OIG Audit Approach.................................................................................. 5 

     Prior Reports ........................................................................................... 6 

FINDINGS AND RECOMMENDATIONS ......................................................... 7 

 I.  OIG REVIEW OF EXPERT WITNESS CONTRACTS ............................................................... 7
 
     Expert Witness Contract Guidance .............................................................. 7 

     Use of FEW Funds Inconsistent with the FEW Guiding Principles ...................... 9 

     Other Reportable Matters ........................................................................ 15 

     Unclear Uses of FEW Funds ...................................................................... 18 

     Conclusion ............................................................................................ 21 

     Recommendations .................................................................................. 22 

 II.OVERSIGHT
              AND MONITORING OF FEW BUDGETING AND EXPERT 

    WITNESS EXPENSES ...................................................................................................................  23
 
     FEW Budgeting for Expert Witnesses ......................................................... 23 

     Monitoring of FEW Expert Witness Expenses............................................... 26 

     FEW Accounting Activities ........................................................................ 28 

     Conclusion ............................................................................................ 29 

     Recommendations .................................................................................. 29 

STATEMENT ON INTERNAL CONTROLS ..................................................... 30 

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 31 

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ........................... 32 

APPENDIX II - PRIOR REPORTS ............................................................... 36 

APPENDIX III - SELECTED EXCERPTS FROM JMD GUIDING PRINCIPLES 

  PERTAINING TO EXPERT WITNESSES ................................................... 37 

APPENDIX IV - FEW GUIDING PRINCIPLES INTERIM ADDENDUM ............ 45 

APPENDIX V – JUSTICE MANAGEMENT DIVISION RESPONSE TO THE 

  DRAFT AUDIT REPORT......................................................................... 46 

APPENDIX VI – ANTITRUST DIVISION RESPONSE TO THE DRAFT 

  AUDIT REPORT.................................................................................... 53 

APPENDIX VII – TAX DIVISION RESPONSE TO THE DRAFT AUDIT 

  REPORT............................................................................................... 54 

APPENDIX VIII – EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS

  RESPONSE TO THE DRAFT AUDIT REPORT ........................................... 55 

APPENDIX IX – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE AUDIT REPORT ..... 57 

 
 


        AUDIT OF THE DEPARTMENT OF JUSTICE’S OVERSIGHT OF 

        COSTS INCURRED THROUGH THE FEES AND EXPENSES OF 

                    WITNESSES APPROPRIATION 


                                                               INTRODUCTION 


        The Fees and Expenses of Witnesses (FEW) appropriation is administered by
the Department of Justice (Department) and provides funding for certain categories
of expenses associated with the legal proceedings of the federal government. The
FEW is a mandatory appropriation meaning that the funding does not require
further authorization from Congress for the Department to utilize it each year. The
Department’s FEW funding levels have been constant at $270 million annually since
fiscal year (FY) 2011.

       There are seven activities of Department expenses authorized to be funded
by the FEW appropriation: Fees and Expenses for Witnesses, Protection of
Witnesses, the Victim Compensation Fund, Private Counsel, Superior Court
Informant Program, Alternative Dispute Resolution, and Foreign Counsel.1 As noted
in the chart below, in FY 2013 nearly 80 percent of the FEW appropriation was
allocated for the fees and expenses for expert and fact witnesses.




                                                            
              1
         The entire appropriation is called the Fees and Expenses of Witnesses appropriation. Within
the appropriation are seven funded activities including one also called the Fees and Expenses for
Witnesses.




                                                                     1

 


                                    FEW Appropriation Funds by Expense Category 

                                                 FYs 2011 to 2014


                       Department Expense Category                            FEW Funded          Percent
                                                                                Amount            of Total2
                                                                                Each FY
Fees and Expenses for Witnesses:                                                 $214,622,000         79
Provides funding for the payment of costs incurred by expert and
fact witnesses.
Protection of Witnesses:                                                           $43,661,000        16
Provides funding for the Department’s Witness Security Program,
which ensures the security of certain government witnesses, or
potential government witnesses, and their families.
Victim Compensation Fund:                                                                    $0       0
Provides resources to compensate individuals who are victimized
by protected witnesses.3
Private Counsel:                                                                    $7,000,000        3
Provides funding to allow the Department to retain outside private
counsel to defend federal employees who are being sued while
carrying out official duties.
Superior Court Informant Program:                                                            $0       0
Provided funding for the protective services offered to the District
of Columbia Superior Court Witnesses.4
Alternative Dispute Resolution:                                                     $1,300,000       <1
This program encompasses a wide range of problem-solving and
conflict management techniques including mediation, early neutral
evaluation, and arbitration.
Foreign Counsel:                                                                    $3,417,000        1
Provides funding to allow the Department to retain outside counsel
to represent Government officers and employees who are sued in
a foreign country while performing their official duties.
                                                              Total:            $270,000,000         100
Source: 2014 Congressional Budget Request, Fees and Expenses of Witnesses.

       FEW funds are considered no-year funds. This allows the Department to
retain any balances unspent for any given year making funds available for an
indefinite period of time without limitation. The following chart shows the annual
appropriated and carry forward amounts from FY 2008 to the present.




                                                            
              2
                  Due to rounding, the sum of the percentages in this table does not equal 100 percent.

               
              3
                  There has been no funding or authorizations for this activity since FY 2011.

               
              4
          The funding for this activity has been eliminated and moved to the Protection of Witnesses 

decision unit. As a result, there has been no funding or expenditures for this activity since FY 2011.




                                                               2

 


                                  FEW Annual Appropriated and Carry Forward Amounts

                                                   FYs 2008-2014


        Fiscal Year                            Appropriated            Carry Forward      Funds Available
                                                 Amount                   Amount          Including Carry
                                                                                              Forward
                  2008                                 $168,300,000         $90,669,792        $258,969,792
                  2009                                 $168,300,000         $64,994,621        $233,294,621
                  2010                                 $168,300,000         $39,767,037        $208,067,037
                  2011                                 $270,000,000         $18,551,903        $288,551,903
                  2012                                 $270,000,000         $92,378,168        $362,378,168
                  2013                                 $270,000,000        $177,556,162        $447,556,162
                  2014                                 $270,000,000        $201,980,219        $471,980,219
              Source: JMD

      FEW funds are appropriated to and managed by the Department’s Justice
Management Division (JMD), which in turn allots those funds to the litigating
components within the Department. The following three offices within JMD have
responsibilities related to the FEW:

       	 Budget Staff - serves as the central budget office for the Department. The
          Budget Staff is responsible for overseeing all aspects of planning and
          preparation of the budget for the entire Department, which totals over $30
          billion. Included within the Budget Staff is the Legal Activities Group which
          oversees the various litigation-related components, and is specifically
          responsible for the formulation, execution and performance review of the
          FEW appropriation.

       	 Procurement Services Staff (PSS) - provides acquisition support primarily to
          the Department's litigating components, as well as other DOJ components
          such as the U.S. Trustees and JMD staffs. PSS is organized into three
          groups: the Office of the Director, the Acquisition Programs Group (APG),
          and the Acquisition Management Group.

              PSS developed the Guiding Principles for Obtaining Witness Services Under
              the Fees and Expenses of Witnesses Appropriation (FEW Guiding Principles).
              The FEW Guiding Principles were originally published in February 1999 and
              have been updated several times, most recently in April 2005.5 According to
              the FEW Guiding Principles,

                             PSS has responsibility for: (1) overseeing and monitoring the
                             use of the FEW appropriation; (2) issuing policies and
                             procedures and conducting training related to the approval and
                             execution of witness agreements (contracts); (3) authorizing
                                                            
              5
         On November 16, 2012, an interim addendum titled “Applicable use of Fees and Expenses of
Witnesses Mandatory Appropriation” was issued. See Appendix IV.




                                                                      3

 


                             and processing requests to obtain Government/Military and
                             Foreign fact witnesses; and (4) obtaining advances for foreign
                             fact witnesses.

              The APG is the organization within PSS that is directly responsible for
              managing the expert and fact witness program.

       	 Finance Staff - develops and promulgates policies and standards pertaining
          to financial and accounting activities of the Department. The Finance Staff
          provides accounting policies and services in coordination with Department
          components authorized to use the FEW appropriation. The Finance Staff told
          us that their responsibilities with respect to the FEW are the same as with all
          appropriations they manage within the Department.

Utilization of the FEW Appropriation

       FEW funds for the fees and expenses of witnesses are utilized primarily by 6
of the Department’s litigating divisions and by EOUSA, which provides
administrative support for the 93 United States Attorneys located throughout the
United States, the District of Columbia, and U.S. territories.6 The following chart
provides a brief description of these components and the amount of FEW funding
each was allotted for the fees and expenses of witnesses in FY 2013.




                                                            
              6
          There are 93 United States Attorneys responsible for 94 United States Attorney’s Offices
(USAO). The Department’s National Security Division and the Office of General Counsel also make
limited use of FEW funds. As explained in greater detail in Appendix I, these two components were
not included in this audit.




                                                               4

 



                                    FEW Funding Allotted to Components, FY 2013

                                  Department Component                   FEW Funding Received
Antitrust Division - promotes economic competition through                         $14,100,603
enforcing and providing guidance on antitrust laws and principles.
Civil Division- represents the United States, its departments and                   $63,209,982
agencies, Members of Congress, Cabinet Officers, and other federal
employees in any civil or criminal matter within its scope of
responsibility.
Civil Rights Division - enforces federal statutes prohibiting                         $6,807,365
discrimination on the basis of race, color, sex, disability, religion,
familial status and national origin.
Criminal Division- develops, enforces, and supervises the                             $5,616,074
application of all federal criminal laws except those specifically
assigned to other divisions.
Environment & Natural Resources Division (ENRD)- enforces                           $52,022,292
the Nation’s environmental laws; prosecutes criminal cases under
federal pollution and wildlife laws; defends environmental and
natural resources laws and federal agency programs and actions;
litigates cases under statutes providing for the management of
public lands and natural and cultural resources; litigates cases to
protect the rights of Indians under treaties, acts of Congress, and
Executive Orders, and defends the United States in claims brought
by Indians.
Tax Division- handles or authorizes most civil and criminal litigation              $25,393,382
that concerns or relates to the internal revenue laws in federal
district and appellate courts.
EOUSA – EOUSA receives annual FEW allotments from JMD and                           $72,476,335
disburses the funds to each United States Attorneys’ Office. EOUSA
also provides FEW and FEW Guiding Principles training to U.S.
Attorneys’ administrative staffs, and monitors district FEW
allotments and spending.
Source: DOJ, OIG 
 
OIG Audit Approach

       As noted above, the fees and expenses for expert and fact witnesses account
for 79 percent of appropriated FEW funds each year. During our initial
comprehensive survey of the fees and expenses for witnesses we found that the
fact witness program accounts for only about 9 percent of this total.7 In addition,
FEW fact witness payments are statutorily restricted to $40 per day plus expenses.
These factors led us to conclude that the fact witness program did not present a
high risk to the FEW appropriation. As a result, we focused our audit on the expert
witness program, with the objective of reviewing the Department’s management
and use of the Fees and Expenses of Witnesses appropriation for expert witnesses.


                                                            
              7
          The second largest FEW expense category, Protection of Witnesses, accounts for 16 percent
of the FEW appropriation, and the remaining activities comprise less than 5 percent of appropriated
FEW funds.




                                                               5

 


         To accomplish our objective, we interviewed representatives from several
DOJ components responsible for the management of the FEW appropriation
including JMD, EOUSA, selected United States Attorneys’ Offices (USAO), and the
six litigating divisions noted above.

       In addition, as shown in the following chart, we reviewed expert witness
contracts executed from FY 2008 to 2011 at 18 locations to assess the effectiveness
of internal controls and compliance with the FEW Guiding Principles.8

                                                                    FEW Expert Witness 

                                                               Testing Sample by Component 

                                                                     FYs 2008 to 2011


         Component                                               Contracts Sampled    Sample FEW Funds Paid
Antitrust Division                                                       34                      $13,733,853
Civil Division                                                          101                      $35,244,034
Civil Rights Division                                                    25                       $2,414,123
Criminal Division                                                         5                       $2,313,507
ENRD                                                                     93                      $79,976,101
Tax Division                                                             81                      $31,075,991
12 US Attorneys’ Offices                                                390                      $13,110,423
                      Total:                                            729                    $177,868,032
Source: OIG

       The results of our review are detailed in Findings and Recommendations
section of this report. Further information on the audit objectives, scope, and
methodology is contained in Appendix I.

Prior Reports

       Our research identified two prior reports prepared by the Department of
Justice Office of the Inspector General and the General Accounting Office (now
known as the Government Accountability Office) which dealt with the fees and
expenses of witnesses. Although these reports are over 20 years old, they
identified some of the same issues discussed in this report, including the failure to
follow procedures, questionable payments, and the need for additional guidance.
Additional details on these reports are included in Appendix II.




                                                            
              8
                  A complete list of the 18 locations we visited is listed in Appendix I.




                                                                         6

 


                 FINDINGS AND RECOMMENDATIONS
 

      I.    OIG REVIEW OF EXPERT WITNESS CONTRACTS
 
            We found that the Department did not always meet the
            requirements for retaining and paying expert witnesses with
            FEW funds. Overall, we reviewed 729 expert witness contract
            files funded by the FEW appropriation and found that 74
            (10 percent) contracts amounting to $15.2 million did not
            satisfy the criteria set forth in the FEW Guiding Principles
            because, for example, they involved work performed prior to
            the case being filed in federal court, cases outside the federal
            court system, or component administrative support. We also
            found an additional 39 contracts totaling over $10 million for
            which we could not determine whether the intent of the FEW
            Guiding Principles had been met because the underlying
            contract was vaguely written, as with contracts for the
            evaluation of damages; or because the FEW Guiding Principles
            were ambiguous or silent about the circumstances presented
            in the particular case, as with contracts for translation of
            evidence. According to JMD staff, some sections of the FEW
            Guiding Principles are ambiguous or overly restrictive, and as
            a result would benefit from clarification to better meet the
            purposes of the Guiding Principles.

Expert Witness Contract Guidance

       The FEW appropriation provides funding for the payment of costs incurred by
the Department for its use of expert witnesses. Expert witnesses may appear on
behalf of the federal government when a specific expertise is required in the
prosecution or defense of a federal case. Expert witnesses provide technical or
scientific testimony based on their qualifications and expertise, and are
compensated based on negotiations with the federal government attorney that
obtained the services of the witness.

      The use of FEW funds to contract with expert witnesses is primarily governed
by the FEW Guiding Principles, section 1.4, which states in part:

      The cost of work performed by an expert witness for other than preparing
      and presenting his or her own testimony cannot be properly paid from the
      FEW appropriation. The financial responsibility for an expert witness whose
      primary function is to assist in the investigative phase of a case remains with
      the litigating organization or investigative agency (i.e., information or
      investigative work done for a prosecuting attorney for the purpose of
      determining whether a charge should be made in a particular case; services
      provided PRIOR to the case being docketed in a Federal court; services



                                         7

 


              which are not solely for examination/preparation and testimony in a legal
              proceeding in a Federal court). Any individual retained by DOJ to assist in
              the investigative phase of a case or who is not expected to provide expert
              testimony is considered to be a "Litigative Consultant." The FEW
              appropriation CANNOT be used to reimburse Litigative Consultants. Rather,
              funding comes from the litigating office's or client agency’s appropriation.9

      The FEW Guiding Principles provide the following definitions for “expert
witness” and “litigative consultant”:

              Expert Witness: An individual who is an expert by knowledge, skill,
              experience, training or education, and may testify in the form of an opinion
              or otherwise. (See Federal Rules of Evidence, Rules 702 and 703). Expert
              witnesses are appropriate for use when scientific, technical or other
              specialized knowledge will assist the trier of fact to understand the evidence,
              the Government's case, or to determine a fact in issue. Payment for services
              of expert witnesses and those expenses necessary for the expert witness to
              prepare and present his or her testimony may be made from the FEW
              appropriation.

              Litigative Consultant: An individual retained to assist in the investigative
              phase of a case matter who is not expected to testify in a formal trial
              proceeding. Consultants serve in a purely advisory capacity and express
              opinions or views on issues and subjects presented to them. Ordinarily, a
              consultant is an expert, but not necessarily a specialist, in the particular area
              in which advice is given. Payment of services of a litigative consultant
              CANNOT be made from the FEW appropriation.

      JMD staff told us that prior to the development of the FEW Guiding Principles,
the FEW appropriation was governed by a loose array of guidance that was
developed and maintained on an ad-hoc basis.10 The FEW Guiding Principles were
developed by JMD in 1999 and have been revised several times since then. The
current version was produced in April 2005 by a working group that included JMD’s
PSS staff and Office of General Counsel, the six litigating divisions, and EOUSA.
JMD staff told us that it began an effort to produce an updated version of the FEW
Guiding Principles in 2009, and that the effort is ongoing. According to JMD staff,
the updates were intended to address, among other things, language in the current
FEW Guiding Principles that the JMD staff believes to be ambiguous or overly




                                                            
              9
                   Additional relevant portions of the FEW Guiding Principles are included in Appendix III.
               
              10
           JMD order OBD 2110.20B dated February 1, 2001, addresses the delegation of authority to
acquire the services of fact and expert witnesses in judicial proceedings using the FEW appropriation.




                                                               8

 


restrictive.11 As of January 2014, JMD staff told us they did not have an estimated
target date for completing these updates.

Use of FEW Funds Inconsistent with the FEW Guiding Principles

       We conducted reviews of expert contracts at the 6 litigating divisions and 12
USAOs in order to assess compliance with the FEW Guiding Principles at the
component level. We reviewed a sample of 729 expert witness contracts in total,
accounting for $177,868,032 in FEW funds spent from FYs 2008-2011. Overall, we
found that 74 contracts (10 percent of our sample) did not satisfy the requirements
as set forth in the FEW Guiding Principles. These 74 contracts totaled $15,199,676,
or about 9 percent of associated FEW funds paid. Generally, these 74 contracts can
be grouped into 4 categories that, in our opinion, were inconsistent with the FEW
Guiding Principles. Each of these categories is explained in further detail below.

Expert Witness Services Provided Prior to Case Docketing in Federal Court

       As noted above, according to our reading of the FEW Guiding Principles, FEW
funds may not be used to pay for expert witness services provided prior to a case
being docketed in a federal court.12 The FEW Guiding Principles consider such
services to be the financial responsibility of the component. According to JMD, a
case is considered docketed on the date a case is filed in a court and assigned a
court docket number.

       In total we identified 43 contracts totaling $10,194,222 that paid for expert
services provided either in part or in full prior to the docket date, or for services in
matters for which investigations were closed without a case being filed in a federal
court. For those contracts in which some work was performed prior to the docket
date, we considered only that portion as an inconsistent use of FEW funds. For
work performed entirely prior to or absent a docket date, we considered the entire
contract an inconsistent use of FEW funds.


                                                            
              11
           One such update was issued November 16, 2012, and expanded the use of FEW funds for
contract administration costs. It also recognized that appropriate uses of the FEW Appropriation for
the costs of expert witnesses are outlined in the FEW Guiding Principles. See Appendix IV.
               
         12
            At the conclusion of this audit, one of the Department’s litigating divisions disagreed with
our interpretation of section 1.4 of the FEW Guiding Principles. This component stated that, in its
view, the nature of the work to be performed, not the timing of the contractor’s retention, determines
whether a contractor is a litigative consultant or a “FEW-fundable” expert witness. This component
described section 1.4 of the FEW Guiding Principles, upon which the OIG’s analysis is based, as “poorly
worded.” The OIG recognizes that in some circumstances an expert witness may be retained to
prepare for testimony in an action not yet docketed. However, the current language of section 1.4 of
the FEW Guiding Principles seems to provide that when such activity is undertaken before the docket
date, FEW funds should not be used to pay for the expert’s services. As we state later in this report, if
the OIG’s interpretation of the FEW Guiding Principles is inconsistent with the intent of its drafters, we
recommend that the working group considering modifications or clarifications to the FEW Guiding
Principles include this issue in the scope of its review.




                                                               9

 


                  Expert Services Provided Before or Without
                         a Docket Date By Component

           Component                Number of Contracts          FEW Funds Paid
Antitrust Division                         26                            $8,411,477
Civil Rights Division                       2                              $141,450
ENRD                                        4                              $312,881
Tax Division                                1                               $46,150
USAO Eastern District of                    1                                 $2,538
California
USAO District of Nevada                         3                               $3,000
USAO District of New Jersey                     1                              $38,280
USAO Southern District of New                   4                           $1,206,875
York
USAO Western District of                        1                              $31,571
Tennessee
                         Total:              43                          $10,194,222
Source: OIG

       As noted in the chart above, most of the expert services provided prior to the
court docketing date were expended by the Antitrust Division. When we discussed
these cases with Antitrust Division staff, we were told that Antitrust Division’s use
of expert witnesses differs substantially from the other litigating components within
the Department. Antitrust Division officials acknowledged that docket numbers
may not yet be assigned to its cases when it places experts under contract. The
reason for this, according to Antitrust Division, is that the Antitrust Division’s civil
merger and non-merger investigations are typically months, and sometimes years,
in the making and routinely require the use of expert witnesses from the outset of
the investigation. Antitrust Division officials stated that these investigations require
intense data analysis in a wide variety of industries, and the expert witnesses it
places under contract typically will not testify at trial unless they are involved with
the research from the outset. According to Antitrust Division officials, when the
division places an expert witness under contract, it is with the expectation that, if
the case ultimately goes to trial, the expert witness will testify.

       Antitrust Division officials also noted that, depending on the industry, the
pool of available expert witnesses may be extremely limited. This means that the
Antitrust Division and its opposing counsel could be pursuing the same expert
witnesses. For this reason, Antitrust Division officials stated that it is vital that
experts be placed under contract as early in the investigative process as possible.




                                          10

 


       We do not question Antitrust Division’s reasoning for placing its expert
witnesses under contract as early as possible. However, as we note above, the
current language of the FEW Guiding Principles appears to state that services
provided prior to a case being docketed in a federal court are the financial
responsibility of the component and cannot be paid with FEW funds. In our
judgment, based upon the FEW Guiding Principles, the appropriate course of action
for cases involving expert services prior to docketing would be to process and pay
the contractor for such services using the component’s agency appropriation. We
recommend that JMD ensure that FEW funds are not expended for expert witness
services provided prior to a case being docketed in a federal court. If JMD believes
that exceptions to this rule are necessary, or the rule as stated in the FEW Guiding
Principles should be adjusted, the FEW Guiding Principles should be updated
accordingly.

Expert Witness Services Retained But Not Performed

       We found 21 cases where, although the contract was for expert witness
services, either there was no indication in the file that expert testimony was
anticipated or the file indicated that the anticipated testimony would be fact-based.
In 14 of these cases, based on the contract files, it appeared that the contractor
was expected to perform work that more closely resembled that of a litigative
consultant. In seven of these cases, private investigators were hired for what
appeared to be fact-finding purposes only. These 21 contracts totaled $2,372,980
and are explained in further detail below.

           Expert Services Not Performed After Docketing by Component

             Component                  Number of Contracts       FEW Funds Paid
Civil Rights Division                           2                          $25,600
ENRD                                            2                         $567,608
USAO Central District of California             3                          $65,270
USAO Eastern District of California             1                             $210
USAO Northern District of California            1                           $4,267
USAO Middle District of Florida                 6                          $43,026
USAO Southern District of Florida               1                           $3,375
USAO District of New Mexico                     1                           $7,002
USAO Southern District of New York              3                       $1,639,712
USAO Western District of Tennessee              1                          $16,910
                               Total:          21                      $2,372,980
      Source: OIG

No Indication of Anticipated Expert Testimony

      According to the FEW Guiding Principles, litigative consultants serve in a
purely advisory capacity and express opinions or views on issues and subjects
presented to them; these individuals are retained to assist in the investigative
phase of a case matter and are not expected to testify in a formal trial proceeding.
We asked JMD if there were circumstances where a component might retain a


                                         11

 


litigative consultant after a case is docketed in federal court. According to JMD,
litigative consultants may be used in an advisory capacity after the docket date and
during trial, but these costs should not be paid using FEW funds because the FEW
Guiding Principles make clear that the cost of work performed by an expert for
anything other than preparing and presenting his or her own testimony cannot be
properly paid from FEW.

       We identified 14 contracts, totaling $2,318,304, and found that 13 of the 14
cases’ statements of work contained no indication that testimony was possible or
expected and that none of the related invoices described preparation or
presentation of expert testimony.13 In some of these cases the contract files
explicitly described the contractor as engaged to advise the Assistant U.S. Attorney
handling the case. Below are two examples excerpted from contract files that we
reviewed:

                            We are requesting funds for [contractor] to review the case file, the
                             taped interviews of the defendant by law enforcement, review the
                             medical records of the defendant, interview relevant witnesses, and
                             prepare the prosecution team for any court hearing involving the
                             defendant’s mental health.

                            [Contractor], a medical consultant, is needed to assist in the defense
                             of this medical malpractice claim. She will be reviewing, organizing
                             and summarizing plaintiff’s medical records, advising on medical
                             records issues and any pertinent issues deemed necessary.

       Although we understand that litigation can be unpredictable and that
Department attorneys must prepare for the possibility that a case may go to trial,
in our judgment, when expert services are requested and approved for payment
with FEW funds, the contract files should contain some explanation of the nature of
the expert testimony anticipated, or should at least document the fact that the
expert is expected to testify at a trial. Such an explanation would help ensure that
expenditures of FEW funds are consistent with the FEW Guiding Principles. It could
also help to clarify what is expected of the expert under the contract. Although we
recognize that some of these individuals could have gone on to testify as expert
witnesses in these cases, none of the 14 files discussed above contained a
statement of why the witness would fairly be expected to provide expert testimony
and thus would be eligible under the FEW Guiding Principles for payment with FEW
funds.


                                                            
              13
           One Statement of Work read as follows: “Although the defendant has pled, the
government requires [contractor’s] services to assist the USAO as it prepares its position and
recommendation in regards to sentencing (fines, restitution, etc.). [Contractor] will consult with
government counsel, prepare charts and exhibits, review reports and findings, and prepare a report
and/or recommendations. There is a slight possibility of testimony at the sentencing hearing as well.”
We reviewed the transcript of the sentencing hearing and found the contractor did not provide any
testimony.




                                                               12

 


      Private Investigators Paid with FEW Funds

       Seven of the 21 contracts noted above involved cases in which components
representing the U.S. government as a defendant in civil cases hired private
investigators to gather information about plaintiffs. These seven contracts totaled
$54,676 in expenses paid. According to EOUSA guidance for contracting with
private investigators in civil cases, private investigators should only be categorized
as experts when it is appropriate to do so. This guidance states that an expert
provides his or her expertise and gives his or her opinion on a matter; in contrast,
the guidance states that investigators will usually be retained to develop evidence
and not to offer an opinion, and if they are called to testify about their
investigations, they are most likely to be considered fact witnesses, not experts.

        EOUSA’s guidance is consistent with the FEW Guiding Principles, which, as
noted above, states that an expert witness is an individual who is an expert by
knowledge, skill, experience, training or education, and may testify in the form of
an opinion or otherwise. The FEW Guiding Principles further state that expert
witnesses are appropriate for use when their specialized knowledge will assist the
trier of fact to understand the evidence or the government's case, or to determine a
fact in issue. In comparison, the FEW Guiding Principles define a fact witness as an
individual whose testimony consists exclusively of the recitation of facts or a
description of events.

      Because the question of whether a private investigator should be considered
an expert or a fact witness turns on the nature of the testimony they are contracted
to provide, we reviewed these files to determine whether expert witness services
were provided, or at least anticipated.

       In one of the files we reviewed, we did not see any evidence in the
Statements of Work that the component anticipated any type of testimony by the
private investigator. As noted above, the FEW Guiding Principles state that
payment for services of expert witnesses and those expenses necessary for the
expert witness to prepare and present his or her testimony may be made from the
FEW appropriation. Because this file did not contain any explanation of anticipated
testimony, we do not believe FEW funds should have been used. In the remaining
six contracts, the components anticipated that the private investigator would
testify, but we did not see any indication in the files that the testimony would be
expert in nature. Instead, it appeared that the testimony of these private
investigators was to have been limited to the results of their fact finding, which is
consistent with the FEW Guiding Principles’ definition of a fact witness. In addition,
according to the invoices none of the private investigators hired in these seven
cases ultimately testified at a deposition or trial.

        Because we found that these components retained contractors under expert
witness contracts who were expected to perform, or actually performed, litigative
consultant or fact witness work, we recommend that JMD take steps to ensure that
litigative consultants or fact witnesses are not paid with FEW funding under expert
witness contracts.


                                          13

 



Services Provided Outside of a Federal Court

      The FEW Guiding Principles allow FEW funds to be used for services of expert
witnesses testifying in federal court or participating in judicially-sponsored
Alternative Dispute Resolution proceedings. In total, we identified five Civil Division
contracts totaling $1,631,880 where expert services were retained for matters
heard outside of a federal court or judicially-sponsored Alternative Dispute
Resolution proceeding.

       Four of these contracts, which totaled $1,282,529, were for expert witness
services involving the resolution of matters between the United States and Canada
in the London Court of International Arbitration (LCIA). According to its web site,
the LCIA is not linked to, or associated with, the government of any jurisdiction, but
rather is a private, not-for-profit company that is entirely neutral and independent
of any other organization. LCIA records we reviewed for these matters indicated
that the parties involved brought the disputes directly to the LCIA, and we found no
evidence that the proceedings were sponsored by or held at the direction of a
federal court. Because the matters were not held in or sponsored by a federal
court, we consider the use of FEW funds to pay for these four expert witness
contracts to be inconsistent with the FEW Guiding Principles.

       The remaining Civil Division contract, which totaled $349,351, paid for expert
witness services in proceedings held before the Civilian Board of Contract Appeals.
The Federal Acquisition Regulation describes matters before the Civilian Board of
Contract Appeals as administrative proceedings. The FEW Guiding Principles also
state that the FEW appropriation is to be used only for judicial, and not
administrative, proceedings. Therefore, we consider the funding of this contract
with FEW funds to be inconsistent with the FEW Guiding Principles.

       We recommend that JMD take steps to ensure that expert witness services
paid for with FEW funds are only utilized in cases heard in a federal judicial
proceeding or judicially-sponsored Alternative Dispute Resolution proceeding. If
JMD intended for expert witness fees to be paid with FEW funds for judicial
proceedings outside of those described in the FEW Guiding Principles, it should
update the FEW Guiding Principles accordingly.

Administrative Expenses Paid with FEW Funds

      We identified five contracts totaling $1,000,594 in which FEW funds were
used to pay administrative expenses incurred by ENRD’s Expert Witness Unit.
ENRD hired contractors with these FEW funds to process expert witness invoices
and perform other administrative tasks related to ENRD’s expert witness program.

      Prior to November 2012, the FEW Guiding Principles did not contemplate or
make any allowance for the use of FEW funds to pay for component administrative
expenses, whether related to expert testimony or otherwise. When we asked JMD
about this in March 2012, PSS staff agreed that administrative expenses should not


                                          14

 


be paid with FEW funds. As a result, we considered all of the charges associated
with these five contracts to be inconsistent with the FEW Guiding Principles. We
also note that, based on discussions with ENRD staff and review of ENRD’s FEW
reports, it appears that ENRD spent a total of $2,543,183 in FEW funds on
administrative expenses from FYs 2007-2011.

       In November 2012, JMD issued an interim addendum to the FEW Guiding
Principles which stated “In light of current fiscal constraints… JMD has reconsidered
current guidance that does not explicitly authorize the payment of contract
administration costs associated with preparing and presenting expert testimony
from the FEW appropriation. Because these costs are an integral part of expert
witness functions, JMD is revising its guidance to allow such costs to be paid by the
FEW.”14 However, the administrative expenses that ENRD paid with FEW funds also
included services that, based on the contract, were clearly associated with litigative
consultant services, not preparing and presenting expert testimony. The use of
FEW funds for such expenses appears to be inconsistent with the FEW Guiding
Principles even taking into account the November 2012 interim addendum.

      We recommend that JMD ensure that expert witness contracts paid with FEW
funds are used to retain administrative services only when allowable under the FEW
Guiding Principles and that, if JMD intends to expand the allowable uses of FEW
funds, it formally incorporate all relevant guidance into the FEW Guiding Principles.

Other Reportable Matters

       In addition to the inconsistent uses of the FEW funds noted above, we
identified other instances where we believe FEW funds were not used in accordance
with the FEW Guiding Principles. This included travel expenses paid with FEW funds
that exceeded the allowances in the Federal Travel Regulation or were not properly
supported. In addition, we found that one component purchased dozens of laptop
computers with FEW funds that were used by litigative consultants as well as expert
witnesses, contrary to the guidance provided by JMD’s General Counsel.

Travel Reimbursements

      The FEW Guiding Principles state that the expert witness’ travel expenses
may be reimbursed up to the allowances and subsistence levels stated in the
Federal Travel Regulation. We identified the following FEW travel expenditures that
were reimbursed above what was allowable at the time the travel occurred and the
reimbursements did not have the required documentation to exceed normally
allowed rates.




                                                            
              14
           As of August 2014, this interim addendum had not been formally incorporated into the FEW
Guiding Principles.




                                                               15

 


              Lodging Rates

     Allowable lodging rates are established by the General Services
Administration (GSA).15 We identified the following hotel stays reimbursed by
components in excess of allowable GSA rates:

    Expert Witness Hotel Stays in Excess of Allowable GSA Rate by Component

                                 Component                      Hotel Nights     Total Amount in
                                                                               Excess of Allowable
                                                                                    GSA Rate
     Antitrust                                                         2                        $197
     Civil                                                           120                      $8,390
     Civil Rights                                                     15                        $631
     ENRD                                                            304                     $11,124
     Tax                                                              17                      $1,384
     USAO Eastern District of California                               3                        $195
     USAO District of Massachusetts                                    4                        $346
     USAO Southern District of New York                                8                      $1,146
     USAO Western District of Tennessee                               12                      $1,180
                                    Total:                           485                    $24,593
              Source: OIG

              First Class Air and Train Fares

      The Federal Travel Regulation generally requires air and train travelers to use
coach class accommodations. We found the following first class air and train trips
reimbursed by the following components:




                                                            
              15
            The Federal Travel Regulation has provisions for instances where these lodging and coach
class rates are exceeded; however, the reason must be documented and approval provided.




                                                               16

 



            Unallowable Expert Witness First Class Travel by Component16

     Component                               First Class                        First Class
                                             Air Trips                          Train Trips
     Antitrust                                      1                                   0
     Civil                                          1                                   1
     Civil Rights                                   2                                   2
     ENRD                                           8                                   0
     Tax                                            6                                   3
     USAO Southern District of New York             0                                   2
                                      Total:       18                                   8
        Source: OIG

        Other Unsupported Travel

       Terms for expert witness contracts include a requirement that invoices must
be accompanied by travel receipts to substantiate the invoice amount. We found
travel unsupported by receipts totaling $90,122 at the Civil Division and $1,203 at
the USAO for the Southern District of Florida.

       Expert witness contract terms and the Federal Travel Regulation are clear
that travel expenses must be supported. Department components must be
conscious of these guidelines when reimbursing expert witness travel expenses.

Litigative Consultant Use of FEW-Funded Computer Equipment

       In 2008, new encryption requirements were promulgated by the
Department’s Senior Procurement Executive for Personally Identifiable Information
(PII). Some litigating components requested permission from JMD to buy PII-
compliant laptops for those experts unable or unwilling to render their own
equipment compliant. In response, the JMD General Counsel produced an opinion
which found such purchases were allowable under the FEW Guiding Principles, with
the following stipulation: “The litigating component will need to ensure that if the
laptops are funded by the FEW, they are only used by expert witnesses and only for
the purposes described.”

               In 2008, Civil Rights Division purchased 50 laptop computers with FEW funds
totaling $50,723, as well as external hard drives totaling $9,583. The Civil Rights
Division also purchased another 25 computers of the same make and model in
2011 for $53,636. Civil Rights Division staff told us that these computers were
used by both expert witnesses and litigative consultants. Under JMD direction,
litigative consultants should not use laptops purchased with FEW funds.
                                                            
        16
           Because some documentation we reviewed listed only fare totals inclusive of taxes and fees
and did not list base fares, and due to the limitations of air and rail coach class fare histories, we were
unable to calculate accurate amounts reimbursed in excess of allowable fares for these trips.
         




                                                    17

 



       Civil Rights Division staff told us they maintain an electronic database in
which FEW laptops are signed in and out, but do not maintain a history of usage.
We obtained records identifying the FEW laptops that were signed out for use at the
start of our audit in February 2012, and again toward the end of our fieldwork in
August 2013. In February 2012, we found that there were 19 FEW laptops in use.
The Civil Rights Division told us that 13 of the 19 laptops were signed out to expert
witnesses, and the remaining six were signed out to litigative consultants. In
August 2013, we found that six laptops were signed out: three to expert witnesses
and three to litigative consultants. The use of these laptops by litigative
consultants was contrary to the stipulation contained in the JMD General Counsel’s
opinion governing the use of laptops paid for by FEW funds.

      In addition, we believe that the use of FEW laptops by litigative consultants
serves as an example of why we believe the Department should monitor the use of
FEW funds more closely. We discuss the issue of monitoring in greater detail in
Finding II of this report.

Unclear Uses of FEW Funds

       In addition to the 74 contracts where we determined the use of FEW funds
was inconsistent with the FEW Guiding Principles, we also found 39 expert witness
contracts for which it was unclear whether the use of FEW funds was allowable. For
the cases described below, either the expert witness contracts prepared by the
responsible attorneys were vague, or the FEW Guiding Principles were ambiguous
or silent on the particular circumstances of the case. These 39 files totaled over
$10 million in fees and expenses paid with FEW funds.

Evaluation of Damages

       We identified four contracts totaling $863,916 where an expert was retained
to evaluate the plaintiff’s damage claims. Three of these four contract files made
no explicit mention of testimony. The fourth file indicated that the contractor was
available to provide testimony if necessary. We did not find any evidence of
preparation for or presentation of testimony in the related invoices.

      When we followed up with the components involved with the first three
contracts, we were advised that they anticipated that the contractors would provide
expert testimony. However, it was still unclear to us based on the contract files
whether the evaluation of damages in these cases was intended to advise the
government’s attorney when assessing settlement options or whether it was
intended for testimony in court. In these cases, we believe a more clearly written
contract could have helped the reviewer determine whether these contracts were
allowable uses of FEW funds. We recommend that JMD provide clear guidance to
department attorneys and administrative staffs on the necessary elements of an
expert witness contract to be paid with FEW funding.




                                         18

 


Post-Settlement or Post-Judgment Expert Witness Contracts

      We identified 12 Civil Rights Division expert witness contracts that involved
post-settlement or post-judgment activities for which we were unable to conclude
whether they represented an allowable use of FEW funds. These contracts totaled
$744,270.

       Nine of these Civil Rights Division contracts, totaling $110,774, involved
assessment of compliance with settlement agreements. Generally, the settlement
agreements in these matters allowed, but did not explicitly require, Civil Rights
Division to assess compliance with settlement terms agreed to by the parties and
approved by the court. In the event Civil Rights Division found non-compliance
with the settlement terms, the court expected that Civil Rights Division would first
attempt resolution with the opposing party. However, if that resolution was
unsuccessful, Civil Rights Division could seek relief from the court. In such
circumstances the retained expert who assessed compliance with the settlement
would be expected to testify on behalf of the government. We did not find any
evidence in the related invoices that any of these nine contractors actually testified.

        We also identified three Civil Rights Division expert witness contracts,
totaling $633,496, involving its successful suit against the New York City Fire
Department (FDNY). These contractors were hired after the verdict to participate in
the development of new FDNY hiring practices. These contract files also did not
explicitly state that expert testimony was anticipated but rather stated “if
requested.” When we inquired about these three contracts, Civil Rights Division
staff told us that these contractors would be expected to testify in the event Civil
Rights Division objected to the new hiring practices. In addition, Civil Rights
Division told us that it anticipated that the court would request testimony from the
each party’s experts as it considered whether to approve the new hiring practices.

        We found that the FEW Guiding Principles are silent as to whether the
retention of an expert witness after an approved settlement or judgment order has
been entered by court is a permissible use of FEW funds. While we understand that
a court may retain jurisdiction over a case in order to supervise a settlement, in
cases like the nine referenced above, the terms of the settlements indicate that the
initial review by the expert is intended for the government attorney’s internal use.
Only if a dispute arises might the retained expert be called upon to testify. We
recommend that JMD assess whether payments made to experts retained to assess
compliance with settlement agreements or judgment orders are an allowable use of
FEW funds and update the FEW Guiding Principles as appropriate.




                                          19

 


Translation or Enhancement of Evidence

       During our visits to the various USAOs, we identified 16 contracts where
linguists were hired and paid with FEW funds to translate written or recorded
evidence. In another case we found that an audio laboratory was hired to enhance
audio and video evidence, for a total of 17 contracts. These contracts totaled
$137,799.

        The only role explicitly described for linguists in the FEW Guiding Principles is
found in Section 3.3, which allows for interpreters to be paid with FEW funds for
pretrial conference, deposition, or courtroom interpretation of witness testimony.17
Although the term “translator” is included in the definitions section of the FEW
Guiding Principles as an individual who converts written material from one language
to another; the work of a “translator” is not addressed in the substantive sections
of the FEW Guiding Principles. When we discussed the translation contracts with
the litigating components, we were told that linguists are often called to the witness
stand in order to attest to the accuracy of the translation they produced.

       Because the FEW Guiding Principles do not explicitly address either the
translation or enhancement of evidence, we recommend that JMD assess whether
experts retained for translation and enhancement of evidence purposes can be paid
with FEW funds and update the FEW Guiding Principles as appropriate.

Grand Jury Interpreters

        We found three contracts, totaling $3,824, where FEW funds were paid to
interpreters who were hired as experts for grand jury witness testimony. As
mentioned above, the FEW Guiding Principles, section 3.3, specifically allows for
interpreters to be paid as expert witnesses in pretrial conferences, depositions, or
court testimony. We also note that section 9.1 of the FEW Guiding Principles, which
covers pre-trial conferences, defines a pre-trial conference as a meeting with a
witnesses to discuss their testimony in a pending trial, hearing, or grand jury
proceeding. The FEW Guiding Principles go on to state that these meetings take
place after the investigative stage of a case is completed and the trial, hearing, or
grand jury proceeding has been scheduled. However, the U.S. Attorney Grand Jury
Manual describes a grand jury as an “investigative body,” which appears to imply
that the investigative stage of the case includes the grand jury. In addition, JMD
told us that they consider grand jury interpreter work to be a fact witness expense,
allowable under FEW Guiding Principles section 7.7. This JMD interpretation would
limit the payment to grand jury interpreters to the statutory fact witness rate.
Because the U.S. Attorney Grand Jury Manual and the JMD interpretation provided
to us appear to conflict with the information contained in the current version of the
FEW Guiding Principles, we recommend that JMD definitively determine when


                                                            
              17
         The FEW Guiding Principles defines an “interpreter” as “an individual who converts verbal
communications in one language to another.”




                                                               20

 


expert witness fees in grand jury proceedings can be paid with FEW funds and
update the FEW Guiding Principles accordingly.

Document Management

       We found three contracts at ENRD, totaling $8,442,764 in FEW funds, that
involved primarily document management, scanning, and coding related to ENRD’s
Tribal Trust litigation. The Tribal Trust litigation involves the U.S. government’s
management of 56 million acres of land resources in trust for the benefit of
individual Indians and tribes. The U.S. government has been sued in over 100
lawsuits which allege that the U.S. government should be ordered to prepare a “full
and complete historical accounting of the Tribes’ trust fund accounts and non-
monetary trust resources.” ENRD handles these cases on behalf of the U.S.
government and is also the document manager for the records relating to all of the
Tribal Trust cases.

       ENRD’s contract files stated that the documents were intended for expert
witness use and, as such, were expenses necessary for the expert witness to
prepare and present his or her testimony. However, the FEW Guiding Principles
specifically state that only the cost of work performed by an expert witness to
prepare and present his or her own testimony can properly be paid from the FEW
appropriation. As a result, even if these documents were intended for an expert
witness’s use, they appear not to have been strictly allowable under the FEW
Guiding Principles because the expenses were not used to compensate that expert
witness for the preparation or presenting of his or her own testimony.18

      As noted above, we recommend that JMD ensure that expert witness
contracts paid with FEW funds are used to retain administrative services only when
allowable under the FEW Guiding Principles and that, if JMD intends to expand the
allowable uses of FEW funds, it formally incorporate all relevant guidance into the
FEW Guiding Principles.

Conclusion

       Overall, we found that in 74 of the 729 expert witness contracts we
reviewed, the criteria set forth in the FEW Guiding Principles were not satisfied.
These 74 contracts amounted to $15.2 million in FEW funds expended on contracts
inconsistent with the FEW Guiding Principles. We also found an additional 39
contracts, totaling more than $10 million, where we could not determine whether
the intent of the FEW Guiding Principles was followed because the underlying
contract was not written with specificity or the FEW Guiding Principles were
ambiguous or silent about the circumstances presented in the particular case. As a

                                                            
              18
          The costs discussed in this section were all paid with FEW funds prior to JMD’s issuance of
the November 2012 interim addendum, discussed above, that addressed the use of FEW funds for
payment of contract administration costs associated with preparing and presenting expert testimony.
                



                                                               21

 


result, we believe the Department should ensure that the FEW Guiding Principles
are updated appropriately and that Department attorneys understand when
contractors are eligible to be paid as expert witnesses with FEW funds.

Recommendations

We recommend that JMD:

    1.	 Ensure that FEW funds are not expended for expert witness services provided
        prior to a case being docketed in a federal court. If JMD believes that
        exceptions to this rule are necessary, or the rule as stated in the FEW
        Guiding Principles should be adjusted, the FEW Guiding Principles should be
        updated accordingly.

    2.	 Ensure that litigative consultants or fact witnesses are not paid under expert
        witness contracts with FEW funding.

    3.	 Ensure that expert witness services paid for with FEW funds are only utilized
        in cases heard in a federal judicial proceeding or judicially-sponsored
        Alternative Dispute Resolution proceeding. If JMD intended for expert
        witness fees to be paid with FEW funds for judicial proceeding outside of
        those described in the FEW Guiding Principles, it should update the FEW
        Guiding Principles accordingly.

    4.	 Ensure that expert witness contracts paid with FEW funds are used to retain
        administrative services only when allowable under the FEW Guiding Principles
        and that, if JMD intends to expand the allowable uses of FEW funds, it
        formally incorporate all relevant guidance into the FEW Guiding Principles.  

    5.	 Provide clear guidance to department attorneys and administrative staffs on
        the necessary elements of an expert witness contract to be paid with FEW
        funding.

    6.	 Assess whether payments made to experts retained to assess compliance
        with settlement agreements or judgment orders are an allowable use of FEW
        funds and update the FEW Guiding Principles as appropriate.

    7.	 Assess whether experts retained for translation and enhancement of
        evidence purposes can be paid with FEW funds and update the FEW Guiding
        Principles as appropriate.

    8.	 Definitively determine when expert witness fees for grand jury proceedings
        can be paid with FEW funds and update the FEW Guiding Principles
        accordingly.




                                          22

 



      II.	   OVERSIGHT AND MONITORING OF FEW BUDGETING AND
             EXPERT WITNESS EXPENSES

             We identified two instances where, in coordination with JMD
             Budget Staff, FEW funds were repurposed to relieve pressure
             on the budgets of two Department litigating components. JMD
             Budget Staff informed us that it consulted with its Office of
             General Counsel before such repurposing. While it is unclear
             whether the use of FEW funds for purposes not covered in the
             Guiding Principles was inappropriate under any law or
             regulation, we believe such repurposing should be done rarely,
             and only with scrupulous attention to both the explicit
             requirements which attach to the FEW funds and to the
             Congressional purpose of that appropriation. Moreover, the
             FEW Guiding Principles do not specifically outline a policy for
             such repurposing, yet as the FEW carry forward balances
             increase, we believe litigating components could increasingly
             look to the FEW to relieve budget pressure. Without clear
             guidance on the repurposing of FEW funds we believe the
             practice is susceptible to abuse.

             In addition, according to the FEW Guiding Principles, JMD’s
             Procurement Services Staff is responsible for overseeing and
             monitoring FEW funds. Nonetheless, PSS officials stated that
             it cannot realistically perform this key function due to the
             volume of expert witness contract actions performed by the
             Department each year. Instead, PSS stated that it relies on
             component administrative staff, in part through its Delegation
             of Procurement Authority program, to monitor FEW funds.
             However, the Delegation of Procurement Authority Program
             does not specifically delegate monitoring responsibility to
             components, and PSS officials, as well as some component
             officials, acknowledged that these administrative staff
             members are often reluctant to question the decision making
             of the attorneys they support. We believe this situation
             creates confusion and likely results in inconsistent monitoring
             of FEW funds.


FEW Budgeting for Expert Witnesses

        According to the FEW Guiding Principles, the Assistant Attorney General for
Administration is responsible for setting general policies and for the control of the
FEW appropriation. JMD’s Budget Staff provides funds control policy and oversight.
With respect to expert witness funding, this includes allotting FEW funds to the
litigating components, ensuring component FEW spending remains within quarterly



                                         23

 


and annual allotment limits, and consulting with components on appropriate use of
FEW funds.

        According to the JMD Budget Staff, in recent years decisions regarding the
allotment of funds to the litigating components have been based primarily on prior
year spending. If a component requires additional FEW funds to meet expert
witness needs, that component contacts the JMD Budget Staff directly. As noted
above, the FEW appropriation is a “no-year” appropriation, which means that
unexpended balances from the prior fiscal years are carried forward to the current
fiscal year. Unexpended component allotments are returned to JMD at the end of
each fiscal year and are carried forward to the next fiscal year.

2011 FEW Appropriation Increase

       For FY 2011, JMD requested and received a 60 percent, $101.7 million
increase in the Department’s FEW appropriation, from $168.3 million to $270
million. Ninety-one percent of this increase was intended for expert witnesses.
JMD requested the increase because FEW carry forward balances, which were at
$96.8 million in FY 2006, had been decreasing toward zero, while expert witness
costs were projected to increase, particularly those related to national security and
fraud prosecutions.

      By the time of the FY 2014 budget request, the 2013 FEW carry forward
amount had increased to $177.6 million, nearly double the carry forward amount in
2006. The request included the following language explaining the increase:

      The FEW appropriation had a carryover of $177,556,000 in FY 2013. This
      amount is inclusive of an increased appropriation in FY 2011 to $270 million
      while obligation rates have not materialized as anticipated to meet this
      increase.

       JMD Budget Staff told us they had not determined why the anticipated
increased FEW expenditures did not materialize. JMD initially thought that this was
possibly a result of reduced or frozen hiring in recent years, but JMD staff later
found that this was not supported by the case volume data. Another potential
explanation put forward to us was that there was an increase in cases going to
settlement rather than trial. However JMD had not arrived at any definitive
explanation at the time of our audit.

      The chart below illustrates both the annual decreases in carry forward funds
leading up to the FY 2011 FEW appropriation increase and the subsequent annual
increases.




                                         24

 


                            FEW Annual Carry Forward Amounts, FY 2008 – 2014

                         $250,000,000.00


                         $200,000,000.00


                         $150,000,000.00


                         $100,000,000.00


                           $50,000,000.00


                                                $‐
                                                           FY2008 FY2009 FY2010 FY2011 FY2012 FY2013 FY2014
                             Source: JMD

       We asked whether JMD had any plans to revisit and possibly adjust the FEW
appropriation total, given lower than expected expenditures. Despite the increasing
carry forward amounts, the Budget Staff told us they did not have plans to adjust
the appropriation total. There is no statutory cap or limit on FEW carry forward
amounts.

Repurposing of FEW Funds

        As noted in Finding I of this report, we identified instances where FEW funds
were used to pay for litigative services that would not be authorized under the FEW
Guiding Principles. During our review of expert witness contracts, we found further
that two litigating divisions, in coordination with JMD Budget Staff, charged fees of
litigative consultants to their FEW allotments so that they could redirect litigative
consultant funds to cover shortfalls in their salaries and expenses budgets.
Specifically, the Civil Rights Division used FEW funds to help cover a $655,000
shortfall related to Americans with Disabilities Act rulemaking, and the Antitrust
Division requested approximately $1,000,000 from the FEW, in addition to funds
from other sources, to help fund current services.19 Documentation provided to us
by Antitrust Division indicated that only about $130,000 in FEW funds was
ultimately paid to litigative consultant contracts as part of this transaction.

                                                            
              19
            Two of the Antitrust Division contracts and three of the Civil Rights Division contracts are
also discussed in Finding I of this report as part of our expert contract sample. Both Antitrust Division
contracts involved litigative consulting services performed before the docketing of the case. Two of
the Civil Rights Division contracts were also cases where litigative consulting services were performed
before the docketing of the case. The remaining Civil Rights Division case was for litigative consultant
services performed subsequent to docketing.




                                                                          25

 


      JMD Budget Staff told us the decision to arrange these transactions resulted
from the availability of surplus FEW funds as well as the components’ budget
necessities. JMD Budget Staff informed us that it consulted with its Office of
General Counsel before such repurposing, and we found that the Assistant Attorney
General for Administration approved these decisions. It is unclear whether this use
of FEW funds for purposes not covered in the FEW Guiding Principles was
inappropriate under any law or regulation. However, we also found that the FEW
Guiding Principles do not clearly outline a policy for the repurposing of FEW funds,
and that, as discussed in Finding I, they specifically prohibit the use of FEW funds
to pay for litigative consulting services.

        If FEW carry forward balances continue to increase, the opportunities for
litigating components to look to the FEW to relieve pressure on their budgets will
also increase. If the Department considers the repurposing of FEW funds in this
manner to be an acceptable practice, we believe strict measures must be in place to
prevent abuse. We therefore recommend that JMD revise the FEW Guiding
Principles to identify a clear procedure for the repurposing of FEW funds that
includes adequate documentation and approval requirements. In addition, the
Department should consider whether congressional notification of such repurposing
would be appropriate.

Monitoring of FEW Expert Witness Expenses

       As described in the introduction section of this report, the FEW Guiding
Principles state that the JMD Procurement Services Staff (PSS) is responsible for
(1) issuing policies and procedures and conducting training related to the approval
and execution of witness contracts, and (2) overseeing and monitoring the use of
the FEW appropriation. However, in our initial meeting with PSS staff, we were told
that PSS does not proactively monitor or review component FEW expenditures;
instead, the component staff members are expected to monitor these funds.
According to PSS staff, their office cannot realistically monitor component FEW
funds due to the volume of expert witness contract actions that occur each year.

       During subsequent follow-up discussions, PSS told us they intended to
remove the language from the FEW Guiding Principles concerning PSS oversight
and monitoring of the FEW, and that PSS’s role in this regard should be considered
as more of a compliance function than a monitoring function. We asked who
specifically, if not PSS, is or should be responsible for monitoring and oversight of
the FEW, and PSS staff told us they believe that the component budget or
administrative staffs should be responsible for ensuring FEW funds are used
properly.

       However, PSS staff also acknowledged certain factors that we believe could
compromise components’ ability to monitor FEW funds adequately. Specifically,
PSS staff told us that they believed it is an “unwritten rule” for component
management to make use of FEW funds to the greatest extent possible, and that
the incentive to spend FEW funds is strongest when doing so allows the component
to avoid spending its own budgeted funds. PSS also acknowledged that some


                                         26

 


component administrative personnel may be reluctant to disagree with attorney
decisions with respect to charging contracts to the FEW.

      We also discussed these issues with EOUSA staff, who confirmed that USAO
administrative personnel may be reluctant to question attorney decisions.

       We believe that PSS’s inability to monitor the FEW, the strong incentives for
components to use FEW funds to the greatest extent possible, and the apparent
reluctance of some component administrative staffs to question attorney decision
making combine to create a significant risk that FEW funds could be used
improperly. We recommend that JMD clarify and issue updated guidance that
clearly delineates the responsibility to conduct adequate oversight and monitoring
of FEW funds used for expert witness contracts, and ensure that appropriate
resources are budgeted for the oversight and monitoring.

Department Attorney Review of Expert Invoices

       The FEW Guiding Principles section 6.4 states that the Department attorney
conducting the case shall certify on each payment voucher that the services were
performed. We found that this review and certification was generally performed on
invoices at all components we visited with the exception of ENRD. At ENRD, we did
not find evidence of the required attorney review or certification in 80 of the 88
expert contract files we reviewed.20

        When we discussed the expert witness process with ENRD, the staff told us
that upon receipt, expert witness invoices are sent by email to the responsible
attorney to review and approve the charges. ENRD staff told us that for invoices
under $75,000, if the attorney does not respond to the email and approve the
invoice within 2 weeks, ENRD considers the invoice approved. This policy was
established because ENRD’s attorneys were not responding to the emails. We have
significant concerns about this ENRD policy.

       In our judgment, attorney review of expert witness charges is an important
internal control to minimize risk of misuse of FEW funds. Simply assuming that
invoiced amounts are valid in the absence of actual confirmation from the reviewing
attorney presents a significant risk that FEW funds will be improperly paid to expert
witness contractors. We recommend that JMD ensure all components are aware of
the requirement for Department attorneys to certify the work performed by expert
witnesses, and that those certifications are consistently performed. 




                                                            
              20
           We reviewed a total of 93 ENRD contracts; however, as described on page 14 above, we
found five of these contracts were for administrative support services and not requested by or subject
to review by any particular ENRD attorney.




                                                               27

 


FEW Accounting Activities

       In reviewing FEW expenditure reporting for each component, we identified
certain irregularities in how FEW expert witness expenditures were recorded in the
Department’s Financial Management Information System (FMIS), which is
developed and maintained by the JMD Finance Staff.

       Expended funds are recorded in FMIS using sub-object classification codes.
Sub-object classification codes are four digit codes which define the nature of
services or articles obligated and provide the Department with a detail of expended
funds. For example, the sub-object code for expert witness fees is “1157.”

       We found that the Civil Rights Division’s FEW payments were applied not only
to the 1157 expert witness sub-object code, but also to other sub-object codes,
including those in the 2100 series, which are designated for recording travel and
transportation expenses. We did not find the 2100 series codes used by any of the
other litigating divisions or USAO we visited. Based on the files we reviewed, it
appeared that each of these other components applied all of their expert witnesses’
expenses to the 1157 code, including reimbursable expenses such as travel,
supplies, equipment, and sub-contractors.

       JMD Finance Staff told us that particular sub-object codes, including the 1157
code, are flagged in FMIS to generate annual 1099 tax forms. Amounts for travel-
related sub-object codes in the 2100 series do not appear on 1099 forms. The
annual 1099 form provides the expert witnesses and the Internal Revenue Service
with a statement of the income earned under the 1157 code for the year. When we
brought the Civil Rights Division’s use of other sub-object codes to the attention of
JMD Finance Staff, we were told that currently, the only code available to the
components for expert witness fees is the 1157 code and the use of this code
should include the expert’s fees as well as reimbursed expenses, such as those for
travel, supplies, equipment, and sub-contractors.

       As a result, 1099 forms produced for Civil Rights Division experts report only
the taxable expert witness fees, and do not include travel and other reimbursable
expenses. 1099 forms produced for other Department components include both
the taxable expert fee and the reimbursable expenses, and the expert is expected
to provide documentation to reconcile the claimed tax obligation with the 1099.

       We are concerned that not all 1099s generated by Department components
are using the same criteria. Expert witnesses that may be engaged by more than
one Department component could receive 1099 forms that were generated
inconsistently. As a result, we recommend that JMD ensure that FEW expenses are
coded consistently in FMIS so that all Department financial reporting in the form of
1099 tax forms are consistent across components.




                                         28

 



Conclusion

       Based on our review of expert witness contracts, we do not believe FEW
funds expended on expert witness contracts are being appropriately monitored by
the Department or its components. The FEW Guiding Principles currently state that
JMD PSS is responsible for monitoring FEW funds. However, JMD PSS told us that it
cannot realistically perform the task. In addition, both JMD and EOUSA raised
concerns to us about the reluctance of administrative staff members to question
attorney decision making on issues such as payments to expert witnesses. We
believe this situation creates confusion about monitoring responsibilities and likely
suggests inconsistent levels of monitoring among administrative staff members
involved in the preparation and execution of expert witness contracts. We believe
that the FEW Guiding Principles should be reassessed and revised to clearly
delineate the responsibility to conduct oversight and monitoring of FEW funds used
for expert witness contracts.

       Further, we found that, in consultation with JMD, FEW funds were repurposed
to help components cover shortfalls in budgets that were unrelated to the FEW
appropriation. In our judgment, the repurposing of FEW funds should be done
rarely and only with scrupulous attention to the explicit requirements of the FEW
funds and the Congressional purpose of the FEW appropriation. If the Department
finds this repurposing to be an acceptable practice, strict measures must be in
place to prevent abuse, especially as FEW carry forward balances continue to
increase. JMD should also ensure that all FEW expert witness related expenses are
accurately and consistently recorded in FMIS.

Recommendations

We recommend that the JMD:

     9.	 Revise the FEW Guiding Principles to identify a clear procedure for the
         repurposing of FEW funds that includes adequate documentation and
         approval requirements. In addition, the Department should consider whether
         congressional notification of such repurposing would be appropriate.

    10.	 Clarify and issue updated guidance that clearly delineates the responsibility
         to conduct oversight and monitoring of FEW funds used for expert witness
         contracts and ensure that appropriate funds are budgeted for this oversight
         and monitoring.

    11.	 Ensure all necessary components are aware of the requirement for
         Department attorneys to certify the work performed by expert witnesses, and
         that those certifications are consistently performed.

    12.	 Ensure that FEW expenses are coded consistently in FMIS so that all
         Department financial reporting in the form of 1099 tax forms are consistent
         across components.


                                           29

 




                 STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or operation
of a control does not allow management or employees, in the normal course of
performing their assigned functions, to timely prevent or detect: (1) impairments
to the effectiveness and efficiency of operations, (2) misstatements in financial or
performance information, or (3) violations of laws and regulations. Our evaluation
of internal controls was not made for the purpose of providing assurance on the
Department’s internal control structure as a whole. The Department and the
individual components discussed in this report are responsible for the establishment
and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report, we
identified deficiencies in the Department’s internal controls that are significant
within the context of the audit objectives and that we believe, based upon the audit
work performed, adversely affect its ability to provide adequate oversight and
management of the FEW appropriation. While the Department through JMD has
developed guidance to serve as internal controls for the FEW appropriation, we
found that this guidance is vague and results in variances in its implementation. In
addition, because no routine oversight of the use of the FEW funds is performed, we
found numerous instances where the controls were not followed. As a result, until
these deficiencies are remedied, the Department will be unable to provide adequate
oversight and management of the FEW appropriation.

       Because we are not expressing an opinion on the Department’s internal
control structure as a whole, this statement is intended solely for the information
and use of the Department and the individual components discussed in this report.
This restriction is not intended to limit the distribution of this report, which is a
matter of public record.




                                         30

 


    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       As required by the Government Auditing Standards we tested, as appropriate
given our audit scope and objectives, selected statistics, procedures, and practices
to obtain reasonable assurance that JMD complied with federal laws and regulations
for which noncompliance, in our judgment, could have a material effect on the
results of our audit. JMD is responsible for ensuring compliance with applicable
federal laws and regulations. In planning our audit, we identified the following laws
and regulations that were significant within the context of the audit objectives:

      •      5 U.S.C. § 5537 (2014)
      •      Federal Acquisition Regulation § 6.302-3
      •      Federal Travel Regulation
      •      Federal Rules of Evidence 702, 703

       Other than the specific instances noted in this report, nothing came to our
attention that caused us to believe that the Department or the components
discussed in this report were not in compliance with the aforementioned laws and
regulations.




                                         31

                                                                                                 APPENDIX I 


                                  OBJECTIVE, SCOPE, AND METHODOLOGY



Objectives
 
       The objective of our audit was to review the Department’s management and
use of the Fees and Expenses of Witnesses (FEW) appropriation for expert
witnesses.

Scope and Methodology
 
       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

        To accomplish our audit objectives, we interviewed responsible staff
members of the Justice Management Division’s Procurement Services, Budget, and
Finance Staffs; Executive Office for United States Attorneys; and the United States
Marshals Service. We reviewed Financial Management Information System (FMIS)
reports of FEW transactions for FYs 2008-2011. We conducted site visits,
interviewed responsible administrative staff and reviewed 729 sampled expert
witness contract files for compliance with JMD FEW Guiding Principles. Of the 729
contract files, 666 were statistically selected, as described in the sample selection
methodology section below; 35 were selected judgmentally during our survey
phase; and the remaining 28 were judgmentally selected from a set of payments
where it appeared that vendor related information was incomplete.21 The contract
file reviews were conducted at the following locations:

Litigating Divisions, Washington, D.C.:

              Antitrust Division                               Criminal Division
              Civil Division                                   Environment & Natural Resources Division
              Civil Rights Division                            Tax Division




                                                            
         21
             We identified a set of payments that could not be matched to a dataset that contained
vendor identification information. We judgmentally selected 28 of these payments for further review
and determined that the vendor information was not actually incomplete. For example, in instances
where the expert witness was a federal employee from another federal agency the vendor
identification information would not be included.




                                                                       32

 


United States Attorneys’ Offices (USAO):

       Central District of California          District of New Jersey
       Eastern District of California          District of New Mexico
       Northern District of California         Southern District of New York
       Middle District of Florida              Eastern District of Pennsylvania (survey)
       Southern District of Florida            Western District of Tennessee
       District of Massachusetts               Eastern District of Virginia (survey)
       District of Nevada                      Southern District of West Virginia

       We determined that the six litigating divisions and the USAOs were the
primary users of FEW expert witness funds based on our review of JMD’s annual
Authorization to Obligate Funds for the FEW. We found that the National Security
Division and the Consolidated Executive Office & Office of General Counsel also
made limited use of FEW expert witness funds, but because the amounts were
small (less than 0.2 percent of FEW expert funds combined in FY 2013), we did not
include these components in our audit.

        The Fees and Expenses of Witnesses activity involves both expert and fact
witness funds, and initially we intended our audit to encompass both. During our
initial comprehensive survey of the activity at the start of our audit, we interviewed
staff at the United States Marshals Service headquarters about fact witness
processes, visited three United States Marshals’ district offices to learn about their
fact witness programs, and reviewed fact witness files. We found that the fact
witness program accounts for only about 9 percent of the activity, and this, in
addition to the statutory restriction of FEW fact witness payments to $40 per day
plus expenses, led us to conclude that the program did not present a high risk to
the FEW appropriation. As a result, we narrowed our scope to focus our audit
efforts on the expert witness program only.

Sample Selection Methodology

         We compiled a universe of “sample units” based on the audit objectives using
payments that were coded in FMIS with account classes of: (a) Expert Witness,
(b) Psych Exams, and (c) all sub-object codes of Fees, Expert Witnesses.22 For the
six litigating divisions, the universe for sample selection consisted of 4,326 sample
units with a total payment amount of $368 million. For the 94 USAOs, the universe
consisted of 17,148 sample units with a total payment amount of $118.4 million.

               To provide effective coverage of vendors and litigating divisions, we used a
multistage stratified sample design.23 For this stratified sample design, the
                                                            
      22
         We considered a payment made from the FEW fund by the six litigating divisions and the
94 USAOs from FY 2008 to FY 2011 to be a “sample unit.”
        
       23
          Stratification is a process of dividing population into homogeneous, mutually exclusive
subgroups.




                                                 33

 


universe consisted of 4,297 sample units with a total payment amount of
$347.6 million, after excluding 29 sample units that were judgmentally selected and
tested during our survey phase. Based on the stratification, a statistical sample
size of 282 sample units with a payment amount of $151.1 million was selected for
the litigating divisions.24

       For our sample selection of FEW payments made in the USAOs, we scaled the
universe to include only the USAOs located in the contiguous United States and the
District of Columbia.25 Our universe for the 48 contiguous states and the District of
Columbia consisted of 16,499 sample units and a total payment amount of $113.8
million in 88 USAOs.

      Our review and analysis of the USAOs’ payments led us to employ a two level
sampling approach to select the USAOs and payments for testing. We chose this
approach because the FEW payment amounts varied significantly across the 88
USAOs, as well as the variation in USAO size and activity.

       The first level sampling approach consisted of selecting USAOs from the
universe based on their total payments for FYs 2008-2011. In order to select
USAOs with high-dollar amounts, those with more than $100,000 in at least 3 out
of the 4 fiscal years were considered for selection. In addition, USAOs with total
payment amounts of more than $500,000 during the 4 fiscal years were also
considered for selection. Forty-one USAOs satisfied at least one of these criteria
with a total payment amount of $103 million (91 percent of the universe
considered). To have sufficient coverage we selected 12 of these 41 USAOs.26 The
12 selected USAOs contained 5,243 sample units with a total payment amount of
$54 million.

       In the second level sampling approach, sample units for testing were
selected by first identifying all payments of $500,000 or more from the 12 USAOs
for automatic inclusion in the sample as high-dollar items. There were a total of 10
high-dollar sample units in 3 USAOs with a total payment amount of $9.7 million.
                                                            
              24
            The 282 sample units consisted of: (1) 35 sample units, with a total payment amount of
$86.6 million, of high-dollar amounts ($1 million or higher in payment) that were automatically
included; (2) 140 sample units, with a total payment amount of $61 million, that were randomly
selected from a stratum of payments between $250,000 to less than $1 million; and (3) 107 sample
units, with a total payment amount of $3.5 million, that were randomly selected from a stratum of
payments less than $250,000.
              25
          We excluded the USAOs in Alaska, Hawaii, Guam, Puerto Rico, and the US Virgin Islands
due to budget and time constraints.
              26
            The Southern District of New York was automatically included as one of the 12 districts
because it accounted for 18 percent of the total payments made by these 41 USAOs. The remaining
11 USAOs were selected by employing random sample selection using probability proportion to size.
This resulted in our selection of the: Central District of California, Middle District of Florida, Eastern
District of California, Northern District of California, District of New Jersey, Southern District of Florida,
District of New Mexico, District of Massachusetts, District of Nevada, Western District of Tennessee,
and Southern District of West Virginia. 




                                                               34

 


In order to obtain a representative coverage of the 12 USAOs and 4 fiscal years,
from the remaining 5,233 sample units we selected a statistical sample of 374
units. Therefore, in total, 384 (10 high-dollar and 374 randomly selected) sample
units with $12.5 million in FEW payments were selected from the 12 USAOs for
testing.




                                        35

                                                                                 APPENDIX II 


                                                               PRIOR REPORTS

       In July 1984, the General Accounting Office, now known as the Government
Accountability Office (GAO), issued a report titled, Justice Needs Better Controls
Over Payment of Witness Fees.27 At the time of the report, each expert witness
contract was approved and paid directly by the Justice Management Division. The
report stated this policy was established to provide centralized control over
payments to expert witnesses.

       The report found that Department of Justice procedures for obtaining the
services of expert witnesses were not being fully followed and that some payments
to expert witnesses were questionable. GAO recommended that the Attorney
General emphasize compliance with existing approval and payment policies and
develop additional controls for compensating expert witnesses.

       In September 1992, the Department of Justice, Office of the Inspector
General issued a report titled, Expert Witnesses.28 The report stated that in 1990,
JMD decentralized the expert witness fund, delegating authority for the litigating
components to obligate their own expert witness expenses. Prior to that, expert
witness contracts were managed centrally by JMD. As a result, the litigating
divisions began managing their own expert witness allotments.

       The report found that additional guidelines from the Justice Management
Division would increase effectiveness, including a definition of the difference
between an expert witness and an expert, the amount of detail needed on invoices,
and guidance for the procurement of expert witnesses for testimony before grand
jury. The report raised questions about the distinction between an expert, now
referred to as a litigative consultant, and an expert witness, that is an expert
expected to testify.




                                                            
              27
          U.S. General Accounting Office, Justice Needs Better Controls Over Payment of Witness
Fees, GAO/GGD-84-61 (July 12, 1984).
               
              28
          U.S. Department of Justice, Office of the Inspector General, Expert Witnesses, Evaluation
and Inspections Report I-92-21 (September 1992).




                                                                    36
 
                                                                  APPENDIX III 

 

      SELECTED EXCERPTS FROM FEW GUIDING PRINCIPLES 

             PERTAINING TO EXPERT WITNESSES


1.1   BACKGROUND

      1.1.1 	 The Fees and Expenses of Witnesses (FEW) appropriation is the
              source of funding for witnesses appearing in court on behalf of the
              Department of Justice and for fact witnesses subpoenaed on behalf
              of indigent defendants proceeding under the Criminal Justice Act (28
              C.F.R. § 1821, 28 C.F.R Part 21, and Rule 17(b) of the Federal Rules
              of Criminal Procedure).

      1.1.2 	 The Assistant Attorney General for Administration (AAG/A) is
              responsible for setting general policies and for the control of the FEW
              appropriation. The Budget Staff, Justice Management Division
              (JMD), provides funds control policy and oversight. The Finance
              Staff, JMD, provides accounting policies and services in coordination
              with the U.S. Marshals Service and the Justice components
              authorized to use the FEW appropriation. The U.S. Marshals Service
              provides accounting services for the payment of fact witness
              allowances.

1.2   ROLE OF THE PROCUREMENT SERVICES STAFF

      The Procurement Services Staff (PSS) is an organization within the Justice
Management Division that reports to the AAG/A. Among other things, PSS has
responsibility for:

      1.2.1 	 Overseeing and monitoring the use of the FEW appropriation;
      1.2.2 	 Issuing policies and procedures and conducting training related to
              the approval and execution of witness agreements (contracts);
      1.2.3 	 Authorizing and processing requests to obtain Government/Military
              and Foreign fact witnesses; and
      1.2.4	 Obtaining advances for foreign fact witnesses.

1.3   ROLE OF THE ACQUISITION PROGRAMS GROUP.

       The Acquisition Programs Group (APG) is the organization within PSS that is
directly responsible for managing the Witness Program. The mailing address as
well as telephone and facsimile numbers are as follows:

      Department of Justice 

      Procurement Services Staff 

      Acquisition Programs Group

      National Place Building, Suite 1040 

      1331 Pennsylvania Avenue, NW

      Washington, DC 20530 




                                         37
 
 


1.4   USE OF THE FEW APPROPRIATION

      1.4.1	   Most witness expenses in judicial proceedings incurred by DOJ's
               litigating components of the Offices, Boards, and Divisions (OBDs)
               are payable from the FEW Appropriation (15X0311). They include:

               1.4.1.1   services of expert witnesses testifying in federal judicial
               proceedings in a Federal court or participating in judicially-
               sponsored Alternative Dispute Resolution (ADR) proceedings,

               1.4.1.2   medical and psychiatric examinations of plaintiffs or
               defendants, as discussed in greater detail in Chapters 4 and 5.

               1.4.1.3   taking depositions of the opposing party's expert
               witnesses or fact witnesses, and

               1.4.1.4    fees and allowances of fact witnesses.

      1.4.2 	 The FEW appropriation is available to reimburse the fees and
              expenses of Neutrals in Alternative Dispute Resolution (ADR)
              proceedings, where the Department of Justice is a party....” See 28
              U.S.C. 530C(b)(3)(B).

      1.4.3 	 There are, however, some witness expenses that cannot be
              reimbursed from the FEW appropriation, regardless of what legal
              forum is utilized. These are considered “litigative expenses,” payable
              from the litigating component’s appropriation. For example:

               1.4.3.1     The cost of work performed by an expert witness for
               other than preparing and presenting his or her own testimony
               cannot be properly paid from the FEW appropriation. The financial
               responsibility for an expert witness whose primary function is to
               assist in the investigative phase of a case remains with the litigating
               organization or investigative agency (i.e., information or
               investigative work done for a prosecuting attorney for the purpose
               of determining whether a charge should be made in a particular
               case; services provided PRIOR to the case being docketed in a
               Federal court; services which are not solely for
               examination/preparation and testimony in a legal proceeding in a
               Federal court). Any individual retained by DOJ to assist in the
               investigative phase of a case or who is not expected to provide
               expert testimony is considered to be a "Litigative Consultant." The
               FEW appropriation CANNOT be used to reimburse Litigative
               Consultants. Rather, funding comes from the litigating office's or
               client agency’s appropriation. SAS Instruction 35 provides detailed
               guidance on obtaining the services of litigative consultants. A copy
               of this instruction is posted on the PSS website on the DOJNET.


                                         38

 


               1.4.3.2    The FEW appropriation is NOT to be used for payment of
               fees or expenses in administrative (as opposed to judicial)
               proceedings.

               1.4.3.3    The FEW appropriation is NOT to be used to pay for
               subpoena service on behalf of either DOJ or Criminal Justice Act
               (CJA) attorneys. The U.S. Marshals Service and the investigative
               agencies, both DOJ and non-DOJ, receive Congressionally
               appropriated funds for this purpose.

               1.4.3.4   The FEW appropriation may NOT be reimbursed from
               another agency's appropriation.

               1.4.3.5     The FEW appropriation may NOT be used to pay expenses
               relative to depositions conducted by non-DOJ attorneys.

      1.4.4	   Only a warranted Contracting Officer (i.e., a person with a Delegation
               of Procurement Authority) is authorized to execute an expert witness
               contract on behalf of the government (See also section 1.6.3.2
               below).

3.1   GENERAL

      3.1.1 	 An “expert witness,” as defined in Chapter 2 of these Guidelines, is
              eligible for expert witness payments when the testimony to be given
              covers more than a mere recitation of facts (e.g., opinions on
              hypothetical situations, diagnoses, analyses of facts, drawing
              conclusions, etc., which involve technical thought or effort
              independent of mere facts).

      3.1.2 	 Testimony with respect to knowledge acquired on the job, although
              technical in nature, does not entitle one to expert witness fees if the
              testimony is purely factual. The nature of the testimony is the
              ultimate test.

      3.1.3 	 Expert witnesses are generally paid by the party retaining them.
              However, DOJ may be ordered by the court to pay all or part of the
              fees and expenses of independent experts.

      3.1.4 	 An “Expert Witness Quick-Look Table” is located immediately after
              Chapter 6 of these Guidelines to summarize the proper method of
              acquisition and reimbursement of various types of Expert Witnesses.




                                         39

 
3.3   INTERPRETERS

       The FEW appropriation may be used to pay for the services of interpreters
retained by the Government for purposes of interpretation for witnesses attending
pretrial conferences, providing depositions conducted by DOJ attorneys, or court
testimony. Requests should be submitted on Form OBD-47 as expert witness
expenses.

3.5   SELECTION AND REIMBURSEMENT OF EXPERT WITNESSES

      3.5.1	   Negotiation and Justification Required. As authorized by Section
               6.302-3 of the Federal Acquisition Regulation (FAR), full and open
               competition need not be obtained for expert witnesses to be used in
               any litigation or dispute (including any reasonably foreseeable
               litigation or dispute) involving the Government in any trial, hearing,
               or proceeding before any court or administrative tribunal, whether or
               not the expert witness is expected to testify. A brief explanation
               should be placed in the contract file explaining the basis for selection
               of the particular expert and whether other experts were considered.

      3.5.2	   Selection. The expertise and potential contributions to the case
               should be determining factors in the selection process. The selecting
               attorney should also ensure that the expert does not have anything
               in his or her history that could be used to impugn the credibility of
               testimony as a witness for the Government.

      3.5.3 	 Negotiating Expert Witness Rates. Litigating components should
              negotiate IN ADVANCE with EACH expert witness to ensure that the
              services are obtained at a reasonable rate. It should be remembered
              that experts may charge differing rates for differing activities such as
              deposition, testimony, trial preparation, and court appearance, etc.
              The rates a witness receives for these various activities shall be
              identified in the appropriate section of the Form OBD-47. A listing of
              various expert witness labor categories may be found in FMIS
              Module, Report No. 17. The rates obligated for each expert witness
              labor category may be found in FMIS Expert Witness Module Report
              No. 10. Rates within expert specialties vary depending on the
              location, number of experts available in a particular field, technical
              expertise, prior experience, and other factors. Components are
              encouraged to refer to the rates contained in FMIS Expert Witness
              Module, Report No. 10 in order to verify the reasonableness of their
              proposed expert's rate.

      3.5.4	   Rates in Excess of the Listed Rates. Expert witness rates in excess of
               the rates found in FMIS Expert Witness Module, Report No. 10 should
               be justified. The justification shall cite such things as the difficulty of
               the case, or the lack of other suitable, reasonably priced expert
               witnesses. This situation often occurs when only a limited number of


                                           40

 
               expert witnesses exist or when only local expert witnesses can be
               used and all the local expert witnesses demand excessive rates.

      3.5.5	   Rates for Expert Witnesses in Categories Not Listed in FMIS. For
               expert witnesses in other than the categories listed in FMIS Module,
               Report No. 17, litigating components should use the prevailing rates
               in their local area as guidelines for negotiations.

      3.5.6 	 Reimbursement of Travel Expenses. In addition to the expert
              witness' fee, the witness' travel expenses will be reimbursed up to
              the allowances and subsistence levels in the Federal Travel
              Regulations. Expert witness travel expenses, including those paid via
              the Government Transportation Account (GTA) shall be included on
              the Form OBD-47.

               Generally, expert witnesses should NOT be paid a witness fee for
               travel time. However, witnesses may be paid for their time in transit
               if it is their customary practice to do so, although payment for travel
               time is disfavored.

      3.5.7 	 Government Transportation Account (GTA). Authorized expert
              witness travel may be arranged via a GTA under DOJ's charge card
              contract for official government travel. Components may arrange for
              expert witness GTAs through the Contract Programs Coordinator,
              Financial Operations Service, Finance Staff, Justice Management
              Division. GTAs for component employees, or those used for fact
              witnesses, are NOT to be used for expert witness travel. A separate
              GTA must be established for expert witnesses.

      3.5.8 	 Obtaining Government Rates. Under the General Services
              Administration's transportation contracts, contract fares are available
              for expert witnesses traveling on behalf of the Federal government,
              provided that the arrangements are made by the government
              pursuant to a court order, a properly executed expert witness
              contract, or other authorizing document. Transportation costs must
              be paid directly by DOJ and not by the witness. There is no
              entitlement to Federal government fares when expert witnesses
              purchase their own tickets.

3.6   REIMBURSEMENT OF THE SAME WITNESS USED IN MULTIPLE CASES

      3.6.1 	 When the same expert witness is used in multiple cases (often in
              land condemnation cases or cases where multiple defendants are
              indicted separately), the expert witness is allowed to invoice only for
              the number of hours he or she actually expended on each of the
              cases. The witness is not permitted to “double bill.” As an example,
              if a witness works 8 hours one day preparing for testimony in three
              separate, but virtually identical cases, the witness may not charge 8


                                         41

 
                 hours for each case. Instead, the 8 hours of preparation must be
                 allotted among the three cases.

        3.6.2 	 If the witness is billing on a daily rate, the witness should be
                permitted to bill a maximum of one day's rate for each day's work,
                regardless of the number of cases worked on. It is recommended
                that this procedure be explained in advance to the witness to avoid
                subsequent billing disputes.

3.7 	   REIMBURSEMENT OF MISCELLANEOUS EXPENSES

       Miscellaneous expenses, such as the preparation of court exhibits,
photocopying costs, laboratory costs, etc., should be included in the witness
contract and on the expert's invoice if the payment will be made directly to the
expert witness. If the payment for the miscellaneous expense will be made to a
third party, a separate expert witness request must be processed for the third
party. A copy of the approved expert witness request (OBD-47) must be attached
to the request for payment to a third party.

3.8 	   REIMBURSEMENT OF FEDERAL GOVERNMENT EMPLOYEES AS EXPERT
        WITNESSES.

        Whenever a DOJ attorney expects to use expert testimony of any kind, the
attorney should consider using a Federal government employee in a specialized
field from an agency or bureau of the government as an expert witness. Significant
cost savings are often realized by utilizing government employees. Reimbursement
of government employees used as expert witnesses should be made as follows:

        3.8.1	   Fees. 5 U.S.C. § 5537 prohibits Federal government employees from
                 receiving witness fees for service as witnesses on behalf of the
                 United States.

        3.8.2 	 Cases Involving Employing Agency. Federal government employees
                appear in their official capacity when they testify in cases involving
                the rules and regulations of their own ("employing") agencies. In
                such instances, the expenses of the appearance are to be paid by the
                employing agency. The witness does NOT receive witness fees.

        3.8.3 	 Cases Not Involving Employing Agency. When Federal government
                employees testify as a witness on behalf of another agency, they are
                considered on loan or detail to the other agency. They are
                reimbursed as follows:

                 3.8.3.1   Travel Expenses. Travel expenses are normally paid by
                 the employing agency and are then reimbursed by DOJ (see Chapter
                 12, "Federal Government Employees as Fact Witnesses" if only
                 travel expenses are being requested).




                                          42

 
               3.8.3.2   Former Federal Government Employees. Former Federal
               government employees are considered non-government employees.
               Requests should be processed in the same manner as "regular"
               expert witnesses on the Form OBD-47. They are entitled to expert
               witness fees and expenses even if the expert testifies about official
               matters he or she worked on while federally employed.

               3.8.3.3   U.S. Postal Service Employees. For expert witness
               purposes, U.S. Postal Service employees are considered Federal
               employees.

3.9   REIMBURSEMENT OF COSTS OF DISCOVERY OF EXPERT WITNESSES

       Rule 26(b)(4) of the Federal Rules of Civil Procedure addresses situations in
which one party wishes to obtain information from the other party's expert witness.
While it is preferable for parties to pay for their own witnesses, Rule 26(b)(4)
provides that under certain circumstances the party seeking discovery must pay a
fair portion of the fees and expenses of the other party's expert. Fees should be
allocated as follows:

      3.9.1 	 Department’s Expert Witness Deposed by Opposing Counsel. Fees
              for the attendance of the Department's expert witness to be deposed
              by the other party are payable by the party requesting the
              deposition.

      3.9.2 	 Opposing Counsel’s Expert Witness. In those cases when DOJ must
              pay for discovery of the other party's expert, fees for the other
              party's witness are payable from the FEW appropriation. Such
              services are not considered to be “procurements” by DOJ, but rather,
              “payments.” Thus, a contract document should not be issued;
              signatures of the expert(s) are not required; and these “payments”
              are not subject to ratification procedures (see Section 1.8).

      3.9.3	   Attendance of Department Expert Witness at Depositions in Aid of
               Witnesses’ Own Preparation. Fees for the attendance by the
               Department's expert witness at a discovery deposition of the other
               party's witness are payable from the FEW appropriation when the
               purpose is to assist the Department's expert witness in preparing his
               or her own testimony.

      3.9.4 	 Attendance of Department Expert Witness for General Litigative
              Assistance. Fees for the attendance by the Department's expert
              witness at a discovery deposition of the other party's witness are
              NOT payable from the FEW appropriation when the purpose is for the
              Department's expert to assist the DOJ attorney on more general
              aspects or strategies of the litigation, not directly related to the
              contents of the DOJ witness' own testimony. This type of service




                                         43

 
    should be paid as a litigative expense from the component's
    appropriation account.




                             44

                                                                                           APPENDIX IV


 FEW GUIDING PRINCIPLES INTERIM ADDENDUM 



                                                         u.s. Deportment of JosIke



                                                         W~D.C.MS30


                                                                                 lIlY 16 .•

   TO:


   FROM:
                                                      Controller




  SUBJECT:        Applicable use of!he FeeoODd EJpm... ofW_ ~ AwroPrillliOll

 The F_1Uld Expeaseo of Wi_ Mandatcty Appropriation (FEW) is available to pay cos1I
 for Fad W_ODdExpert Witnesses. Appropriate.- of the FEW appropriaIiOll filI'_
 purposes are out1iDccl in the: Pm m:l Emma gfWjt Guidjne Pripciplg nooSl,

 lbc lusti.. ~ Divisioo (JMD). l'ro<:ur<mc:m S....,.. S1Bff (PSS) dndopod the
 origliW guidiDa priDcipl.. fill' the FEW appropriation, ODd the llepertmeII1 plhlishod them in
 Fettuary 1999. The Depu_ plh!iJhed!he cumnt lOt ofOuidiDg Principles in MaJcb 200S.

   In lijIbt of cumut fiac<d~... JMD is reviewing Iilo FEW appropriation to ddmninc what,
   if my,.items or activiliea tbat curmllly fall oUlli"" Iilo IImding auIbority of !he Ouldm&
   PriIIciples may be COIISidcred appropriaIo for paymcat from !he FEW appropriatiClll in this, ODd
   subocqu<m, fiac<d)'QllS. Aa its first priority, JMD has _ck:red cum:oI guidance tbat does
.' DOl explicitly IIIIhorizelilo - ' o f _ mini_OD ..... ....;oted with ~
. ODd ~ ClIp<rt t<:stimouy from !he FEW appropriation. Bccawe _                       costs ......
   intepal port of eKpcrt wi1Dcos fuoctiona, JMD is revising its guidaDce to ellow sud> c:osts to be
   paid by !he FEW. To _ aid, elredlvellllmodJately, tlte ........t!iuJdlq Prlndp!eo an
   benoby _ _ to allow _            . .t oleoatnd odmhohtntlo....ta_ted willi preparlDa
   ..,d p.-tIq aport - ' 1 fro. tile FEW appraprladoa. 'Ibis memO<lllldom sball
   ........... interim addmdum 10 Iilo 2005 FEW Ouldm& Principles.

 JMD continuos to review aid ...... the 2005 FEW Ouldm& Principl"ODd 001e3!he possibility
 of odditioosJ cIIaoges in !he coming _ _ PI.... _     aoy qucsUOII3 ~ Ibis
 mcmonndum "'. MicbdJo Well (lMD PSS) or ChrilJ Hook (JMD Budget Su1!).




                                                  45
 
                                                                                             APPENDIX V

JUSTICE MANAGEMENT DIVISION RESPONSE TO THE DRAFT
                 AUDIT REPORT



                                                          U.S. Department of Justi ce




                                                          Washington. D.C. 20530


     SEP 1 1 2014
    MEMORANDUM FOR RA YMOND J. BEA UDET
            ASS ISTANT INSPECTOR GENERAL FOR AUDIT

     FROM:   f     LeeJ. Lofthus     ~-I'//.~
                   Assistant Attorney General
                    For Administration

    SUBJECT:       Justice Management Div ision Response to Office of the lnspector General Draft
                   Report: Audit a/the Department a/Justice 's Oversight a/Costs Incurred
                   Through the Fees and Expenses a/Witnesses Appropriation

    This responds to the Office of the In spector General (O IG) draft report, Audit a/the Department
    0/ Justice 's Oversight a/Costs Incurred Through the Fees and Expenses a/Witnesses
    Appropriation. We appreciate D IG' s review of the Department' s administrat ion of the expert
    witness program funded by the Fees and Expenses of Witness appropriation (FEW). We concur
    overall with the recommendations; however, the Justice Management Division (JMD) does not
    agree with all the Report 's factual findings and does not plan to reinvestigate the expert witness
    procurement act ions discussed.

    Before responding to the recommendations, we wish to clarify how the expert witness program
    fits into the Department' s overall management of appropriated funds. The Department has broad
    statutory authority to expend FEW fu nds for multip le purposes. The Department must manage
    those funds to meet competing authorized uses. As an internal management mauer, some
    statutoril y-authorized uses are not perm itted as a matter of course. The JMD Procurement
    Services Staff's Guiding PrinCiples/or Obtaining Witness Services Under the Fees and Expenses
    0/ Witnesses Appropriation ("Guiding Principles"), discusses such constraints. When there is a
    bonafide need for expert witness services consistent with statute, JMD has discretion to allow
    exceptions to the Guiding Principles.

    The 21 st Century Department of Justice Appropriations Authorization Act, Pub. L. 107-273
    (2002), current ly authorizes the Department's use of the FEW as follows:

           (3) Fees and expenses of witnesses.- Funds avai lable to the Attorney General for
           fees and expenses of witnesses may be used for-

                   (A) expenses, mileage, compensation, protection, and per diem in lieu of
                   subsistence, of witnesses (including advances of public money) and as
                   authorized by [28 U.S.c.] section 1821 or other law, except that no
                   witness may be paid more than I attendance fee for any I calendar day;




                                                   46
 
 




    Memorandum for the Assistant Inspector General for Audit                                                  Page 2
    Subject: Justice Management Division Response to Office of the Inspector General
             Draft Report: Audit of the Department ofJustice's Oversight of Costs Incurred
            Through the Fees and Expenses of Witnesses Appropriation

                      (8 ) fees and expenses of neutrals in alternative dispute resolution
                      proceedings, where the Department of Justice is a party; and

                      (C) construction of protected witness safesites.

    28 U.S.C. § 530C(b)(3). 1 Further, the Department's annual appropriation specifies appropriate
    uses of the FEW:

                                    FEES AND EXPENSES OF WITNESSES

                     For fees and expenses of witnesses, for expenses of contracts for the
             procurement and supervision of expert witnesses, for private counsel expenses,
             including advances, and for expenses of fore ign counsel, $270,000,000, to remain
             available unti l expended, of which not to exceed $16,000,000 is for construction
             u[buildings [or protected witness safesi tes; not to exceed $3,000,000 is for the
             purchase and maintenance of armored and other vehicles for witness security
             caravans; and not to exceed $ J 1,000,000 is for the purchase, installation,
             maintenance, and upg rade of secure telecommunications equipment and a secure
             automated information network to store and retrieve the identiti es and locations of
             protected witnesses.

    Department ofJustice Appropriations Act, 20 14, Pub. L. 113-76, Div. B, Tit. II, 128 Stat. 5, 54.

    As Chief Financial Officer of the Department, the Ass istant Attorney General fo r Administration
    (AAG/A) administers the FEW, like other Department appropriations, with the assistance of the
    Deputy Assistant Attorney General/Co ntroller and the JMD Budget Staff. By delegation, the
    AAG/A assigned the Director, JMD Budget Staff, with responsibility for "funds control policy
    and oversight" for the FEW. aBO 21 10.20B, Delegation ofAuthority to Commit Funds and 10
    Acquire Witness Services Using the Fees and Expenses a/Witnesses (FEW) Account, 5(b)
    (200 1) (Delegation). The AAG/A also assigned to the Director, JMD Procurement Services
    Staff (PSS), responsibi li ty for "acquisition policy and services for the expert and fact witness
    programs." Id. The AAG/A further assigned the PSS Director responsibility for promulgating
    additional guidelines "on acquiring witness services" and for "monitoring and overseeing the
    effective use of delegations of authority" issued pursuant to that directive. Jd., ~ 8.

    The Department's mission requirement for expert witness services is mandatory, on-going, and
    dependent on factors not enti rely within its control. The Department must manage FEW funding

    I Two other statutes generally authorize the Department's use ofapproprialed funds 10 make payments to witnesses:
    28 U.S.C. § 524(aXl) ("Appropriations .. . are available to the Anomey General for payment of ... expenses of
    witnesses") and 28 USc. § 1821 (witnesses are entitled to fees and allowances for anendance at federal judicial
    proceedings).




                                                          47

 




    Memorandum for the Assistant Inspector General for Audit                                    Page 3
    Subject lustice Management Di vision Response to Offi ce of the Inspector General
            Draft Report: Audit a/the Department a/Justice 's Oversight a/Costs Incurred
           Through the Fees and Expenses a/Witnesses Appropriation

    to meet variable, irregular need s. The Guiding Principles articulate prudential internal
    constraints on what may be otherwise statutorily-authorized uses of the FEW. By the same
    token, JMD also has flex ibility to manage fund ing resources to allow statutorily-authorized uses
    of the FEW which may not be always explicitly cited in the Guiding Principles.

    We agree that the Guiding Principles, as well as the Delegation, need updating. However, we
    also want to point out that, as the name suggests, the Guiding Principles were never intended to
    add ress all the scenarios associated with the expert witness program operated in multiple
    components. The Guiding Principles were last revised in 2005. The Report ' s recommendations,
    and l MD's experience, surface a number of areas that require reassessment, clarification, or
    explication. In part, that effort has been in abeyance pending issuance ofO IG' s
    recommendations. A successor document will need to be issued within strictures of the
    Department's Directives Management program. See 001 Order 0401 , Directives Management
    (20 12). Thus, when updated, the material comprising the Guiding Principles will be issued in a
    different format . JMD will undertake those revisions in FY , 15 .

    We believe that PSS is properly execut ing its role regarding the expert witness program. The
    Guid ing Principles state that PSS generall y has responsibility for " [0]versee ing and monitoring
    the use of the FEW appropriation." Guiding Principles, § 1.2. 1. The Guiding Pri nciples must be
    read in conjunction with the Delegation, however. PSS' delegated authority is to set acquisition
    policy and to monitor and oversee procurement delegations. To date, PSS has fulfilled this role
    by issuing the Guiding Principles, providing technical assistance in interpreting and applying
    them, and operating the Delegation of Procurement Authority (DPA) program. Through thi s
    program, PSS has delegated procurement authority to approximatel y 300 individuals in the
    Offices, Board, and Divisions, including those with a need to procure expert witness services.
    Each component with DPA holders must demonstrate that it has proper procedures and internal
    controls to handle the anticipated volume, do llar value, and type of procurement actions,
    incl uding expert witness services. Prior to being issued a Contracting Officer' s warrant under
    the DPA program, each individual must successfull y complete certain training requirements.
    PSS retains general oversight responsibility and performs regular compli ance reviews of the
    overall procurement programs operating under a DPA. It is through the DPA program that PSS
    monitors and oversees procurement delegations that im pli cate expert witness services.

    PSS is not responsible for day-to-day oversight and monitoring of individual expert witness
    transactions outside of lMD, however. Under general direction of the AAG/A, Component
    Heads are responsibl e for committing, obli gating, and expending funds within the limitation and
    purpose of an appropriation as warranted and allotted. 001 2030.4G, Control 0/ Funds Under
    Apportionment. ~ 5(b)(I) (20 10). Likewise, Component Heads are responsibl e for developing
    and maintaining internal controls, and preparing component assurance statements. Id. , '15(b)(3),
    (5). JMD will review its existing policies and proced ures and, as necessary, update them to
    improve internal contro ls. Components will al so be reminded of their responsibilities under




                                                  48

 




    Memorandum for the Assistant Inspector General for Audit                                     Page 4
    Subject: Justice Management Di vision Response to Office of the Inspector General
             Draft Report: Audil oJthe Department a/Justice 's Oversight a/Costs Incurred
            Through the Fees and Expenses a/Witnesses Appropriation

    DO] Order 2030.4G to establish and maintain internal controls to help ensure that FEW funds
    are expended for authorized uses only.

    Response to Specific Recommendations

    Below are JMD ' s responses to the Report's 12 recommendations. JMD will develop successor
    guidance to the Guiding Principles in FY ' 15. JMD will remind components of their
    responsibilities regarding expert witness program in the first quarter ofFY' 15.

    Recommendation 1: Ensure that FEW funds are not expended for expert witness services
    provided prior to a case being docketed in a federal court. If JMD believes that exceptions to this
    rule are necessary, or the rule as stated in the FEW Guiding Principles should be adjusted, the
    FEW Guiding Principles should be updated accordingly.

    Response: We concur that successor guidance should address whether and when it is
    permissible to activate FEW funding for expert witness services rendered prior to a case
    docketing, or whether a waiver should be granted in a particular situation. JMD will review
    existing policies and procedures and, as necessary, update them to improve internal controls.
    Components will also be reminded of their responsibilities under DO] Order 2030.4G to
    establish and maintain internal controls to help ensure that FEW funds are expended for
    authorized uses only.

    Recommendation 2: Ensure thatlitigative consultants or fact witnesses are not paid under
    expert witness contracts with FEW funding.

    Response: We concur. JMD will review existing policies and procedures and, as necessary,
    update them to improve internal controls. Components will also be reminded of their
    responsibilities under DO] Order 2030.4G to establish and maintain internal controls to help
    ensure that FEW funds are expended for authorized uses only.

    Recommendation 3: Ensure that expert witness services paid for with FEW funds are only
    utilized in cases heard in a federal judicial proceeding or judicially sponsored Alternative
    Dispute Resolution proceeding. If JMD intended for expert witness fees to be paid with FEW
    funds for judicial proceeding outside of those described in the FEW Guiding Principles, it should
    update the FEW Guiding Principles accordingly.

    Response: There is no limitation in 28 U.S.C. § 530C(b)(3) or the FEW appropriation that
    requires expert witness services paid with FEW funds be limited to federal judicial proceedings
    or judicially-sponsored Alternative Dispute Resolution. These limitations in the Guiding
    Principles are prudential to conserve FEW resources. We concur that successor guidance should
    articulate a process to seek a waiver of this prudential restriction as appropriate when FEW




                                                  49

 




    Memorandum for the Assistant Inspector General for Audit                                  Page 5
    Subject: Justice Management Division Response to Office of the Inspector General
             Draft Report: A udit oj the Department oj Justice's Oversight oJCosts Incurred
            Through the Fees and Expenses oj Witnesses Appropriation

    resources are available. JMD will review existing policies and procedures and, as necessary,
    update them to improve internal controls. Components will also be reminded of their
    responsibilities under DOJ Order 2030.4G to establish and maintain internal controls to help
    ensure that FEW funds are expended for authorized uses only.

    Recommendation 4: Ensure that expert witness contracts paid with FEW funds are used to
    retain administrative services only when allowable under the FEW Guiding Principles and that, if
    JMD intends to expand the allowable uses of FEW funds, it formally incorporate all relevant
    guidance into the FEW Guiding Principles.

    Response: We concur thal successor guidance should include the November 16,2012
    authorization to use FEW funds for contract administration costs associated with preparing and
    presenting expert testimony, and any other appropriate guidance. JMD will review existing
    policies and procedures and, as necessary, update them to improve internal controls.
    Components will also be reminded of their responsibilities under DO] Order 2030.4G to
    establish and maintain internal controls to help ensure that FEW funds are expended for
    authorized uses only.

    Recommendation 5: Provide clear guidance to department attorneys and administrative staffs
    on the necessary elements of an expert witness contract to be paid with FEW funding.

    Response: We concur that successor guidance should provide a clear description of the
    necessary elements of an expert witness contract.

    Recommendation 6: Assess whether payments made to experts retained to assess compliance
    with settlement agreements or judgment orders are an allowable use of FEW funds and update
    the FEW Guiding Principles as appropriate.

    Response: We concur that JMD should assess these scenarios identified in the Report against
    statutorily-authorized uses of the FEW, Department needs, and available resources. Once JMD
    has done so, it will update successor guidance accordingly.

    Recommendation 7: Assess whether experts retained for translation and enhancement of
    evidence purposes can be paid with FEW funds and update the FEW Guiding Principles as
    appropriate.

    Response: We concur that JMD should assess whether the FEW is or should be available for
    experts retained for translation and enhancement of evidence purposes. Once JMD has done so,
    it will update successor guidance accordingly.




                                                 50

 




    Memorandum for the Assistant Inspector General for Audit                                      Page 6
    Subject: Justice Management Division Response to Office of the Inspector General
             Draft Report: A udit of the Department 0/ Justice 's Oversight a/Costs Incurred
            Through the Fees and Expenses a/Witnesses Appropriation

    Recommendation 8: Definitively determine when expert witness fees for grand jury
    proceedings can be paid with FEW funds and update the FEW Guiding Principles accordingly.

    Response: It is consistent with 28 U.S.c. § 530C(b)(3) and the FEW appropriation to use the
    FEW to pay experts who testify before federal grand juries. The Guiding Principles' treatment
    of the subject is less clear. We concur that the eligibility of expert witness services for payment
    by the FEW should be clarified in successor guidance.

    Recommendation 9: Revise the FEW Guiding Principles to identify a clear procedure for the
    repurposing of FEW funds that includes adequate documentation and approval requirements. In
    addition, the Department should consider whether congressional notification of such repurposing
    would be appropriate.

    Response: JMD and Department senior leadership always retain the discretion to use
    appropriated funds consistent with legal limitations on those funds and applicable transfer or
    reprogramming authorities. JMD also retains the discretion to permit uses of the FEW
    authorized by statute but not the Guiding Principles. As the Report notes, this discretion has
    been used in special circumstances. We concur that when successor guidance is issued, it should
    identify a clear procedure for seeking a waiver of internal limitations that are more restrictive
    than 28 U.S.C. § 530C(b)(3) and the FEW appropriation. Nothing in the Report suggests a
    change is necessary regarding control of appropriated funds in general.

    Recommendation JO: Clarify and issue updated guidance that clearly delineates the
    responsibility to conduct oversight and monitoring of FEW funds used for expert witness
    contracts and ensure that appropriate funds are budgeted for this oversight and monitoring.

    Response: JMD will review existing policies and procedures and, as necessary, update them to
    improve internal controls. Components will also be reminded of their responsibi lities under
    DO] Order 2030.4G to establish and maintain internal controls to help ensure that FEW funds
    are expended for authorized uses only. We concur that when successor guidance is issued, it
    should restate this internal control structure.

    Recommendation 11: Ensure all necessary components are aware of the requirement for
    Department attorneys to certify the work performed by expert witnesses, and that those
    certifications are consistently perfonned.

    Response: We concur that components wou ld benefit from a reminder of this requirement and
    JMD will issue such a reminder. Components will also be reminded of their responsibilities
    under DOJ Order 2030.4G to establish and maintain internal controls to help ensure that FEW
    funds are expended for authorized uses only.




                                                   51

 




    Memorandum for the Assistant Inspector General for Audit                                 Page 7
    Subject: Justice Management Division Response to Office of the Inspector General
             Draft Report: Audit 0/ the Department a/Justice 's Oversight a/Costs Incurred
            Through the Fees and Expenses a/Witnesses Appropriation

    Recommendation 12: Ensure that FEW expenses are coded consistently in FMIS so that all
    Department financial reporting in the form of 1099 tax forms are consistent across components.

    Response: We concur that FEW expenses should be coded consistently in FMIS. JMD Finance
    Staff will reinforce to Executive and Administrative Officers in the Offices, Boards, and
    Divisions (OBDs) the importance of accurate reporting for FEW expenses and the requirement to
    use Sub-object (SOC) 1157, expert witness fees, for all FEW expert witness activity. This
    message will be communicated in the JMD Finance Staff annual Opening Bulletin, which is sent
    out each October to reiterate key financial management controls throughout the OBDs.

    If you have any questions, please contact me on (202) 514-3101 , or have your staff call Robin
    Funston, Director, JMD Budget Staff, on (202) 616-3793; Mark Se1weski, Deputy Director, JMD
    Procurement Services Staff, on (202) 307-1968; or Melinda Morgan, Director, JMD Finance
    Staff at (202) 616-5809.




                                                52

                                                                                                   APPENDIX VI 


ANTITRUST DIVISION RESPONSE TO THE DRAFT AUDIT 

                    REPORT



                                                             I I.S. Dfllarlmen t of .Juslice

                                                             Antitrust l)ivisiOlI


                                                           Liberty Square Building
                                                           IJOJ"Slrur.N,W,
                                                           W",h1ngt<'". DC 11}Q()/


    September 9, 2014



    Raymond J. Beaudet
    Assistant Inspec tor General for Audit
    Office of the Inspector Genera l
    Department of Justice
    1425 New York Avenue NW. Suite SOOO
    Washington DC 20005

    Re:     Draft Audi t Report· Department of Justice's Fccs and Expenses of Witnesses
            Appropriation

    Dear Mr. Beaudet:

    The Antitrust Division is in receipt of the DIG's draft aud it report on use of the Fees and
    Expenses of Witnesses Account (FEW) WIthin the Department of Justice. One of the areas
    referenced in this report is the application of the Department's FEW "Guiding Pri nciples"
    document on expert witness expendi tures by the Antitrust Division, U.S. Department of Justice.
    believe it important to reiterate the Division's legitimate usc of FEW funding on matters prior to
    issuance ora court docket number, a practice that has been fully coordinated with and approved
    by Department of Justice officials.

    For reasons stated clearly in the draft report, Antitrust Division matters are unique in that services
    of expert witnesscs are required early in investigations and well before a coun docket number is
    issued. Indeed. as acknowledged in Footnote 12 in the audit report, 'The DIG recognizes that in
    some circumstances an expert witness may be retained to prepare for testimony in an action not
    yet docketed," This is indeed the need in Antitrust Division matters where experts necessarily
    must be contracted at ma1!er initiation with full expectation they will testify at trial.

    To ensure it is the nature of the work performed and not the timing of contract expert retention
    that detennines whether a contractor is a litigative consultant or an expcrt witness, the Antitrust
    Division will work closely with the Department to update its 2005 "Guiding Principles"
    document and revise Section J.4 to ensure that necessary and previously authorized FEW·funded
    investigation and litigation expert witness retention practices are adequately reflected in the
    Guidelines document.

    Sincerely,

     l\
                King
    Executive O fficer
    Antitrust Division
    Depanment of Justice




                                                      53
 
                                                                                          APPENDIX VII 


TAX DIVISION RESPONSE TO THE DRAFT AUDIT REPORT 




                                                           u.s, Dep:lrtment o( ,Iustice

                                                           Tax l)ivis ioD


                                                           September II, 20 14


  Raymond J. Beaudet
  Assistam Inspector Geneml for Audit
  Office of the Inspector General
  Dcpllrtmcnt of Justice
  1425 New York Avenue, NW. Suite 5000
  Washington, D.C. 2000 5

   Ite:   Draft Audit Report - Department of Justice's Fees and Expenses of Witnesses
          Appropriation

   Dear Mr. Beaudet:

   The Tn.\{ Di\'ision is in receipt of the QIG's draft audit report on use of the Fees and Expenses of
   Witnesses Account (FEW) wi thin the Department of Justice. Throughout the audit report, the
   FEW "Guiding Principles" are referenced, and the audit notes a number of discrepancies
   between the practices of the legal divis ions and the l'riociples. Several or lhe Recommendations
   suggest that these practices be changed to conform with the Principles. or Ihe reverse - that the
   Principles be revised 10 address current practices. We fully agrt.'C with this aitemativc
   recommendation -- that the FEW "Guiding Principles" be rev ised to specifically 3ddress the
   areas of practice idemi fied by the audit team.

   Although the audit report mentions scvenLI instunces of improper billing for travel expenses,
   none orlhc Recommendations specifically address this problem , Nonetheless, the Tu); Division
   has asked for copics of Ihe working papers which identify these improper travel costs, and we are
   !'cvil:wing o ur inlemal control processes regarding !irst clnss travel expenses. We expect to issue
   revised guidance 10 strengthen the re view or Expert Witness contracts and travel expense
   invoices rega rdi,ng trave l expen$t:S.

   The Tax Division will work closely with OUT sister litigating compo nents and the Justice
   Manugcmcnt Division to update the 2005 "Guiding Principles" document. We appreciate the
   work of the audit team in identifying these areas for improvement.


                                                     Si""~ly.
                                                    Get[   Robert L. Om y
                                                                            W'
                                                           Executive Officer
                                                           Tn.\{ Division



                                                                                                 LlI'99f1l




                                                    54
 
                                                                                                       APPENDIX VIII 


EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS 

    RESPONSE TO THE DRAFT AUDIT REPORT




                                                           U.S. Depal1ment of Justice

                                                           Executive Office for United States Attorneys


                                                           R_1MI, RFK /oNhoJWSliaI          B.lldi~,     (101) 1J1·/(JO(}
                                                           9J1)I',""""""""";"~""      N""
                                                           "".........,."" DC 10JJO



                                                             SEP 16 1014
  M EMORAN DUM

 TO:              Thomas o. Puerz.er
                  Regional Audit Managcr
                  Office of the Inspector General


  FROM :         tft~k-
                  Directo r

  SUBJECT:        Response to Office of the Inspector Gcncra!'s Draft Audit Report
                  o n the Department of Justice's Oversight of Costs Incurred through
                  the Fees and Expenses of Witnesses (FEW) Appropriation

          Thank yo u for the opportunity to review the Office oftne Inspector General's (OIG's)
  draft report entitled "Audit of the Department of Justice's Oversight of Costs Incurred through
  the Fees and Expenses of Witnesses Appropriation." Although all ofthc OIG's
  recommendations were addressed to and arc actionable by tnc Justice Management Division,
  the Executive Office for United States Attomeys (EOUSA) would like to address and elarify
  the following references to comments madc by EOUSA personnel during the audit:

     •     (p. ii) EOUSA officials likewise agreed that USAO staff members arc reluctant to
           question the decisions made by Assistant United States Attorneys.
     •     (p.27) We also discussed these issues with EOUSA staff, who confirmed that USAO
           admi nistrative personnel may be reiuctantto question attorney decisions.
       •   (p.29) In addition, both lMD and EOUSA raised concerns to us about the reluctance of
           administrative staff members to question attorney decision making on issues such as
           payments to expert witnesses.

         Administrative stafTmembers in EOUSA and the United States Attomeys' Offices
 (USAOs) regularly monitor and re view the use ofttle FEW appropriation in the USAOs. While
 administrati ve staff members are responsible for ensuri ng that the USAOs follow the relevant
 policies and procedures on the proper use ofthc FEW appropriatio n, they cannot make legal
 judgments about litigation strategy or the litigative need fo r an expert witness in a case.
 Accord ingly, once responsible administrative staff members arc satisfied that the requesting




                                                    55
 
 




    AUSA handling a particular case has properl y explained and justified the need for the expert
    witness, the administrative staff will defer to the requesting AUSA on the legal decision to retain
    the expert wimess.

           We ask that you consider this clarification when finali zing the audi t report.

           Thank yo u again for the opportunit y to review the draft report. Please do not hesitate to
    contact me if you ha ve additional questions.




                                                      2




                                                     56

                                                                     APPENDIX IX

OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
       OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The Office of the Inspector General (OIG) provided a draft of this audit report
to the Justice Management Division (JMD), Antitrust Division, Civil Division, Civil
Rights Division, Criminal Division, Environment and Natural Resources Division, Tax
Division, and the Executive Office for United States Attorneys (EOUSA).
Responsible officials from each of these Department components was represented
at the close-out meeting for this audit and was provided with the opportunity to
provide comments and formal, written responses to the draft report. All comments
received by the OIG were considered and incorporated into this final report as
appropriate. JMD’s formal response is incorporated as Appendix V of this final
report, and the formal responses from the Antitrust and Tax Divisions and EOUSA
are included as Appendices VI, VII, and VIII. The Criminal Division, Civil Division,
and Civil Rights Division did not provide formal, written responses.

Analysis of JMD Response

        All of the recommendations in this report are directed to JMD. In its
response, JMD concurred with each of our recommendations and discussed the
actions it will implement in response to our findings. However, JMD also indicated
that it did not agree with all of the report’s factual findings, and that it does not
plan to reinvestigate the expert witness procurement actions discussed in the
report. While JMD did not point to any specific factual findings with which it
disagrees in its response, we did not ask it to reinvestigate the expert witness
procurement actions discussed in the report. The intent of the recommendations
contained in our report is to ensure that FEW funding is appropriately controlled
and monitored going forward, and we believe the Department’s corrective actions
to address our recommendations should help it to achieve this result.

       JMD’s response also discusses the Department’s broad statutory authority to
expend appropriated Fees and Expenses of Witnesses (FEW) funds, and the fact
that the Department’s mission requirement for expert witness services is
mandatory, ongoing, and dependent on factors not entirely within its control.
Congress has also recognized this by allowing the FEW appropriation to be no-year
funds, which allows for the carryover of remaining balances year to year. However,
because of the significant dollar amounts involved and the Department’s ability to
carry over yearly remaining balances, we believe that it is particularly important
that the Department establish clear and concise guidance governing the use of FEW
funds and ensure that strong internal controls are in place. JMD agrees with our
assessment that the Department’s Guiding Principles for Obtaining Witness Services
Under the Fees and Expenses of Witnesses Appropriation (FEW Guiding Principles)
need to be updated to help achieve this.

        JMD’s response also included a discussion of its responsibilities with respect
to its oversight of the FEW appropriation. JMD indicates that its Procurement
Services Staff (PSS) is properly executing its role regarding the expert witness
program by issuing the FEW Guiding Principles, providing technical assistance in


                                          57
 
 


interpreting and applying the FEW Guiding Principles, and operating the Delegation
of Procurement Authority Program. JMD further indicates that the component
heads are responsible for committing, obligating, and expending FEW funds as well
as developing and maintaining internal controls. We believe the FEW Guiding
Principles should expressly make this delegation of authority clear so that those
who use FEW funds understand that they are primarily responsible for internal
controls over the funds.

Analysis of Antitrust Division, Tax Division, and EOUSA Responses

       In addition to JMD’s response, we received formal responses from the
Antitrust and Tax Divisions, as well as EOUSA.

        In its response, the Antitrust Division reiterates what we noted in footnote
12, on page 9 of this report. According to the Antitrust Division’s response, it will
work closely with the Department to update the FEW Guiding Principles to “ensure
it is the nature of the work performed and not the timing of contract expert
retention that determines whether a contractor is a litigative consultant or an
expert witness…”. As we suggest in our first recommendation, if JMD believes that
exceptions to its rule regarding the docketing date are necessary, the FEW Guiding
Principles should be updated accordingly. We are encouraged by the Antitrust
Division’s willingness to work with JMD on this issue.

       In its response, the Tax Division recognized the discrepancies between the
actual practices of the Department’s litigating divisions and the FEW Guiding
Principles. In its response, the Tax Division stated that it favors the revision of the
FEW Guiding Principles to address the practices of the litigating divisions and
expressed a willingness to work with the other litigating divisions and JMD on
updating current guidance. In addition, the Tax Division stated that it plans to
review its internal control processes regarding first class travel expenses and plans
to issue revised guidance to strengthen the review of expert witness contracts and
invoices with respect to travel expenses. We are encouraged by the Tax Division’s
willingness to work with JMD and the other litigating divisions on this issue.

        In its response, EOUSA addressed comments made during our review
regarding the willingness of USAO staff members to question the decision-making
by attorneys during the expert witness retention process. EOUSA stated that these
administrative staff regularly monitor and review the use of FEW appropriations in
their offices, but noted that these same staff cannot make legal judgments about
litigation strategy or the need for an expert witness in a case. To clarify, the OIG is
not suggesting that these staff members should make legal judgments; rather, the
report highlights the reluctance of these staff members to question administrative
requirements, such as the proper account from which to pay for the services of a
retained contractor.




                                          58

 


Summary of Actions Necessary to Close the Report

1. Ensure that FEW funds are not expended for expert witness services
   provided prior to a case being docketed in a federal court. If JMD
   believes that exceptions to this rule are necessary, or the rule as stated
   in the FEW Guiding Principles should be adjusted, the FEW Guiding
   Principles should be updated accordingly.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that successor guidance should address whether and when it is
    permissible to activate FEW funding for expert witness services rendered prior to
    a case docketing, or whether a waiver should be granted in a particular
    situation. JMD also stated that it will review existing policies and procedures
    and, as necessary provide updates to improve internal controls. In addition,
    components will also be reminded of their responsibilities under DOJ Order
    2030.4G to establish and maintain internal controls to help ensure that FEW
    funds are expended for authorized uses only.

    This recommendation can be closed when we receive evidence of the review of
    existing policies and procedures, and that the revisions determined to be
    necessary regarding the expenditure of FEW funds prior to a case being
    docketed in federal court have been developed and implemented. JMD should
    also provide evidence that all Department components were reminded of their
    responsibilities under DOJ Order 2030.4G.

2. Ensure that litigative consultants or fact witnesses are not paid under
   expert witness contracts with FEW funding.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated it will review existing policies and procedures and, as necessary, update
    them to improve internal controls. Again, JMD stated it will remind the
    components of their responsibilities under DOJ Order 2030.4G to establish and
    maintain internal controls to help ensure that FEW funds are expended for
    authorized uses only.

    This recommendation can be closed when we receive evidence of the review of
    existing policies and procedures, and that the revisions determined to be
    necessary regarding litigative consultants or fact witnesses have been developed
    and implemented.

3. Ensure that expert witness services paid for with FEW funds are only
   utilized in cases heard in a federal judicial proceeding or judicially-
   sponsored Alternative Dispute Resolution proceeding. If JMD intended
   for expert witness fees to be paid with FEW funds for judicial
   proceeding outside of those described in the FEW Guiding Principles, it
   should update the FEW Guiding Principles accordingly.




                                          59

 


    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that there is no limitation in 28 U.S.C. § 530C(b)(3) or the FEW
    appropriation that requires expert witness services paid with FEW funds to be
    limited to federal judicial proceedings or judicially-sponsored Alternative Dispute
    Resolution. However, JMD noted, that the limitations placed in the Guiding
    Principles are prudential to conserve FEW resources. JMD concurred, therefore,
    that the successor guidance should articulate a process to seek a waiver of this
    restriction when FEW resources are available. In addition, JMD stated it will
    review existing policies and procedures and, as necessary, update them to
    improve internal controls. Again, JMD will remind the components of their
    responsibilities under DOJ Order 2030.4G to establish and maintain internal
    controls to help ensure that FEW funds are expended for authorized uses only.

    This recommendation can be closed when we receive evidence of the review of
    existing policies and procedures, and that the revisions determined to be
    necessary regarding non-federal judicial proceedings or Alternative Dispute
    Resolution proceedings have been developed and implemented.

4. Ensure that expert witness contracts paid with FEW funds are used to
   retain administrative services only when allowable under the FEW
   Guiding Principles and that, if JMD intends to expand the allowable uses
   of FEW funds, it formally incorporate all relevant guidance into the FEW
   Guiding Principles.

    Resolved. JMD concurred with this recommendation. In its response JMD stated
    that successor guidance should include the November 16, 2012 authorization to
    use FEW funds for contract administration costs associated with preparing and
    presenting expert testimony, and any other appropriate guidance. In addition,
    JMD stated it will review existing policies and procedures and, as necessary,
    update them to improve internal controls. Again, JMD will remind the
    components of their responsibilities under DOJ Order 2030.4G to establish and
    maintain internal controls to help ensure that FEW funds are expended for
    authorized uses only.

    This recommendation can be closed when we receive evidence of the review of
    the existing policies and procedures and the revisions determined to be
    necessary regarding the retention of administrative services have been
    developed and implemented.

5. Provide clear guidance to department attorneys and administrative
   staffs on the necessary elements of an expert witness contract to be
   paid with FEW funding.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that successor guidance should provide a clear description of the
    necessary elements of an expert witness contract.




                                          60

 


    This recommendation can be closed when we receive evidence that successor
    guidance that contains a clear description of the necessary elements of an
    expert witness contract has been developed and implemented.

6. Assess whether payments made to experts retained to assess
   compliance with settlement agreements or judgment orders are an
   allowable use of FEW funds and update the FEW Guiding Principles as
   appropriate.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that it will assess the scenarios identified in the report against statutory
    uses of the FEW, Department needs, and available resources. Once this is
    completed, JMD will update its successor guidance accordingly.

    This recommendation can be closed when we receive evidence of the review of
    the existing policies and procedures and the revisions determined to be
    necessary regarding settlement agreements or judgment orders have been
    developed and implemented.

7. Assess whether experts retained for translation and enhancement of
   evidence purposes can be paid with FEW funds and update the FEW
   Guiding Principles as appropriate.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that it should assess whether the FEW is or should be available for
    experts retained for translation and enhancement of evidence purposes. Once
    JMD has done so, it will update successor guidance accordingly.

    This recommendation can be closed when we receive evidence of the review of
    the existing policies and procedures and the revisions determined to be
    necessary regarding translation or enhancement of evidence purposes have
    been developed and implemented.

8. Definitively determine when expert witness fees for grand jury
   proceedings can be paid with FEW funds and update the FEW Guiding
   Principles accordingly.

    Resolved. JMD concurred with this recommendation. In its response, JMD
    stated that it is consistent with 28 U.S.C. § 530C(b)(3) and the FEW
    appropriation to use the FEW to pay experts who testify before federal grand
    juries, but recognized that the Guiding Principles’ treatment of the subject is less
    clear.

    This recommendation can be closed when we receive evidence that the use of
    FEW funds for the fees of expert witnesses in grand jury proceedings is clarified
    in JMD’s existing policies and procedures and its successor guidance.




                                           61

  


 9. Revise the FEW Guiding Principles to identify a clear procedure for the
    repurposing of FEW funds that includes adequate documentation and
    approval requirements. In addition, the Department should consider
    whether congressional notification of such repurposing would be
    appropriate.

     Resolved. JMD concurred with this recommendation. In its response JMD stated
     that when successor guidance is issued, it should identify a clear procedure for
     seeking a waiver of internal limitations that are more restrictive than 28 U.S.C
     § 530C(b)(3) and the FEW appropriation. JMD also stated that JMD and
     Department senior leadership always retain the discretion to use the
     appropriated funds consistent with legal limitations on those funds, as well as
     applicable transfer or reprogramming authority. In addition, JMD stated that it
     retains the discretion to permit uses of the FEW authorized by statute but not
     the Guiding Principles.

     This recommendation can be closed when we receive evidence of the review of
     the existing policies and procedures and the revisions determined to be
     necessary regarding the repurposing of FEW funds have been developed and
     implemented.

10. Clarify and issue updated guidance that clearly delineates the
    responsibility to conduct oversight and monitoring of FEW funds used
    for expert witness contracts and ensure that appropriate funds are
    budgeted for this oversight and monitoring.

     Resolved. JMD concurred with this recommendation. In its response, JMD
     stated that it will review existing policies and procedures and, as necessary,
     update them to improve internal controls. Again, JMD will remind the
     components of their responsibilities under DOJ Order 2030.4G to establish and
     maintain internal controls to help ensure that FEW funds are expended for
     authorized uses only. JMD also stated that when successor guidance is issued, it
     should restate this internal control structure.

     This recommendation can be closed when we receive evidence of the review of
     the existing policies and procedures and the revisions determined to be
     necessary regarding responsibility and oversight of FEW funds have been
     developed and implemented.

11. Ensure all necessary components are aware of the requirement for
    Department attorneys to certify the work performed by expert
    witnesses, and that those certifications are consistently performed.

     Resolved. JMD concurred with this recommendation. In its response, JMD
     stated that Department components would benefit from a reminder of this
     requirement and that it would issue such a reminder. Again, JMD will also
     remind the components of their responsibilities under DOJ Order 2030.4G to




                                          62

  


     establish and maintain internal controls to help ensure that FEW funds are
     expended for authorized uses only.

     This recommendation can be closed when we receive evidence that all
     appropriate Department components are aware of the certification requirements,
     and the certifications are performed as required.

12. Ensure that FEW expenses are coded consistently in FMIS so that all
    Department financial reporting in the form of 1099 tax forms are
    consistent across components.

     Resolved. JMD concurred with this recommendation. In its response, JMD
     stated that FEW expenses should be coded consistently in FMIS and that its staff
     will reinforce the importance of accurate reporting and the requirement to use
     the expert witness fee code for all FEW expert witness activity.

     This recommendation can be closed when we receive evidence that all
     appropriate components are made aware of the FMIS coding requirements for
     expert witness activity and these requirements are included in the revised
     policies and procedures.




                                          63

